Office of
Inspector
General
Semiannual
Report to
the Congress
October 1, 1983 to
March 31, 1984

May 1, 1984
General        Office of
Services       inspector
Administration General Washington, DC 20405


 ~30_
["1r. Ray Kline
Acting Administrator
General Services Administration
Washington, D.C.  20405

 Dear Mr. Kline:

The enclosed semiannual Report to the Congress for the six-
month period ended March 31, 1984 is submitted pursuant to
the Inspector General Act of 1978.  Section 5(b) of that Act
requires that you submit this report to the Congress within
30 days, together with any comments you choose to make.

The report is, for the first time, principally organized by
GSA service area. This format reflects the OIG's commitment
to boordinate audit and investigative resources and target
them to significant program issues.

As -the report documents o this focused approach is paying off.
In the Negotiated Commercial Item Schedules (NCIS) program,
for instance, OIG auditors, investigators, and attorneys
worked together with GSA management and the Department of
.Justice to achieve recoveries of $9.8 million during the
reporting period.   In addition, another $2.8 million was
recovered and $15.5 million avoided through audit effort
alone. At the same time, the OIG moved to reduce NClS program
vulnerability by placing greater emphasis on preaward audits,
holding training courses for contracting personnel, and
delib~rately pursuing better communication and cooperation
with GSA contracting officers.    While the intent of these
coordinated efforts is to steadily improve the Government's
posture in NCIS contracting, they are having the additional
bene t of promoting voluntary refunds by contractors.

This report details similar initiatives and benefits in the
other GSA service areas, and I refer you to the Introduction
and overview of the report for a synopsis of them. The
Introduction and Overview also documents a continued record of
productivity increases within the OIG, which I think you will
find impressive.

Sincerely,




      M~aa?
             SICKON
             General

 Enclosure
INTRODUCTION AND                                             ERVIE
A. Introduction
This report, submitted pursuant to the Inspector Gen-         Federal Supply and Services
eral Act of 1978, chronicles the activities of the General    The continued vulnerability of the Government to con-
Services Administration (GSA) Office of Inspector             tractor overcharges under the Negotiated Commercial
General (OIG) between October 1, 1983 and March 31,           Item Schedules program prompted a major shift in the
1984. It is the eleventh Report to the Congress since the     OIG strategy relative to the Office of Federal Supply
appointment of GSA's first Inspector General.                 and Services (FSS). The new strategy emphasizes
                                                              more OIG involvement prior to contract award and
B. Overview                                                   greater coordination with contracting officials.
Over the last few years, the GSA OIG has made deter-          This strategy shift follows from several major recov-
mined efforts to provide better coordinated and               eries achieved this period both within FSS and the Of-
focused audit and investigative coverage of GSA pro-          fice of Information Resources Management (OIRM).
grams. Our concern has increasingly been with pro-            Recoveries within FSS included $1.5 million from a
gram issues rather than individual program discrep-           supplier of duplicating equipment and $1 million
ancies, and the result has been very substantial savings      from a business equipment supplier.
to the Government. This report is organized to high-          Detailed information on these and other activities is
light those program issues and savings on a GSA serv-         presented in Section Ill.
ice basis. The reader is cautioned, however, that the
report does not attempt to represent overall program          Information Resources Management
performance in any of the GSA service areas. Instead,         The OIG tailored its audit coverage of DIRM to evalu-
as required by. the Inspector General Act, it concen-         ate GSA's ability to operate effectively in the
trates on problem areas that warrant management's se-         competitive environment brought about by the
rious attention.                                              breakup of the telecommunications industry. We also
This report also reflects the ~IG's continuing empha-         focused on GSA's computer systems, especially on is-
sis on improving internal productivity and the ~IG's          sues of information security.
commitment to moving aggressively to prevent fraud,           Our reviews highlight that GSA is not currently in a
waste, and mismanagement.                                     posture to operate effectively in       new competitive
                                                              telecommunications environment. In-house limita-
1.                                        Coverage            tions, coupled with the                of comprehensive
                                                              plans for a competitive procurement program, mean
                                                              that GSA is not capitalizing on opportunities for esti-
                                                              mated savings of $36 million annually.
DIG coverage ofthe Public              Service (PBS) in-      We also found GSA's                          to be highly
        using the internal audit, contract audit, and         vulnerable to loss through                   and disaster.
investigative functions to explore two critical issues:       At least part of this problem is attributable to the diffu-
space management and buildings management. Tradi-             sion of responsibility for information             within
tional audit and investigative efforts were comple-           GSA.
mented by two fraud prevention surveys that                   DIG efforts relative to OIRM's contracting function
separately reviewed the vulnerability of space man-           yielded several major recoveries for the Government.
agement operations in one GSA              and the vul-       Especially noteworthy are a $5 million refund from an
nerability of a buildings management office in another.       electronics supplier and a $3.2 million refund from a
These reviews collectively identified the need for more       computer equipment contractor.
aggressive management action in the space-related             Detailed information on these and other activities is
functions and surfaced potential instances of fraud,          presented in Section Iv.
waste, and abuse. Furthermore, they indicated that
many of the economies and efficiencies available to the       Federal Property Resources ...:"""""n......
Government, especially in the leasing area, are not           DIG coverage of the Federal Property Resources Ser-
being realized. Other savings opportunities through           vice (FPRS) concentrated on the effectiveness of GSA's
energy conservation are likewise being overlooked.            real property disposal operations, consistent with
Dne GIG review identified potential savings of $21.3          Presidential emphasis on such activities. Many of
million relating to a lease modification agreement that       these reviews are still in process, thereby preventing
was proposed to settle issues raised by a lessor's law-       any overall assessment of program effectiveness at this
suit against the GSA Resolution of another OIG audit,         point.
issued in the prior period, resulted in a management          One OIG report issued this period, however, disclosed
commitment to avoid the expenditure of $19 million            that procedures governing the processing of real prop-
through more efficient use of space.                          erty receipts did not assure the full collection of
Detailed information on these and other activities is         monies owed the Government on these sales. Further,
presented in Section n.                                       inadequate procedures also resulted in lost interest on
     these receipts. Management is now taking action to                • $22,825,029 in management commitments tore-
     correct these deficiencies.                                          cover funds, court-ordered recoveries, and inves-
     Detailed information on these and other activities is                tigative recoveries;
     presented in Section V.                                           • 384 investigative cases opened and 446 closed;
                                                                       .. 31 case referrals accepted for criminal prosecu-
     Other GSA Coverage                                                   tion and 10 case referrals accepted for civillitiga-
     GIG coverage of the remaining services and staff offices             tion;
     of the GSA encompassed reviews that cut across orga-              • 28 indictments/informations/complaints and
     nizationallines, such as Reform 88 initiatives and ac-               22 convictions on criminal referrals;
     tions pursuant to the Paperwork Reduction Act. Others             • 6 judgments and 12 settlements on civil refer-
     dealt directly in program-related activities.. Much of               rals;
     this work is still in process and we expect to present
                                                                       «I 13 contractor suspensions and 19 contractor de-
     our findings in future reports.
                                                                          barments on administrative referrals;
     Detailed information on DIG activities in other GSA
     areas is presented in Section VI.                                 .. 25 reprimands, 20 suspensions, 23 terminations,
                                                                          and 1 demotion on administrative referrals in-
                                                                          volving GSA employees;
     2. OIG Productivity                                               «I 7 Inspector General subpoenas; and
     The DIG's efforts to increase productivity have in-
     volved clearer definition of performance goals, better            • 208 legislative and 44 regulatory initiatives re-
     management information systems, and closer tracking                  viewed.
     of individual assignments. The following data indi-           Through management commitments, court-ordered
     cate that the emphasis on productivity has had a mea-         recoveries, and investigative recoveries, the DIG
     surable payback.                                              achieved a $7.85 return on every $1 budgeted to its
         .. Total costs recovered/avoided (management              operations in the first half of Fiscal Year 1984 .
            commitments, court-ordered recoveries, and in-         Detailed information on these and other activities is
            vestigative recoveries) per DIG operations em-         presented in Sections VII and VIII.
            ployee is $419,459 in the first half of Fiscal Year
            1984 as opposed to $352,910 in all of Fiscal Year
            1983 and $242,252 in all of Fiscal Year 1982.          3. Prevention Activities
         • Recommended savings per auditor is $905,813             As detailed in Section IX, the GIG's program to prevent
            in the first half of Fiscal Year 1984 as opposed to    fraud, waste, and mismanagement encompasses a
            $587,875 in all of Fiscal Year 1983 and $498,533       wide variety of activities. Highlights of our efforts dur-
            in all of Fiscal Year 1982.                            ing the reporting period include the following:
         .' Audit reports issued per auditor is 3.3 in the first       • The DIG conducted three fraud prevention sur-
            half of Fiscal Year 1984 as opposed to 3.2 in all of          veys staffed by multidisciplinary teams. These
            Fiscal Year 1983 and 2.42 in all of Fiscal Year               surveys, which reviewed major leasing, depot,
           1982.                                                          and buildings management operations, resulted
        • Referrals (criminal, civil, and administrative)                 in numerous referrals for investigative, audit,
           per investigator is 8.7 in the first half of Fiscal            and management action.
           Year 1984 as opposed to 5.86 in all of Fiscal Year          .. Through GIG Integrity Awareness Briefings, an-
           1983 and 2.92 in all of Fiscal Year 1982.                      other 730 GSA employees were trained in how to
        • Criminal referrals per investigator is 2.3 in the               recognize manifestations of wrongdoing, es-
           first half of Fiscal Year 1984 as opposed to 2.17 in           pecially bribery; how to react to them; and the
           all of Fiscal Year 1983 and 0.81 in all of Fiscal              employee's potential role in an ensuing inves-
           Year 1982.                                                     tigation.
        • Employee actions (reprimands, terminations,                  • To heighten awareness of the DIG and its mis-
           suspensions, and demotions) per investigator is                sion within GSA, the DIG placed Hotline posters
           1.4 in the first half of Fiscal Year 1984 as opposed           in all buildings occupied by GSA; widely dis-
           to 1.2 in all of Fiscal Year 1983 and 0.93 in all of           tributed a brochure summarizing our previous
           Fiscal Year 1982.                                              Report to the Congress; and completed slides
     The productivity statistics reflect the following DIG                and text for briefings of new Central Dffice and
     accomplishments this period:                                         regional management officials. To heighten
                                                                          awareness of all DIGs, we took steps to have all
        .. 423 audit reports;                                             DIG Hotline numbers included in the 31 Gov-
        .. $116,215,865 in recommendations for more effi-                 ernment telephone directories published by
           cient use of resources and recovery of funds;                  GSA.
        • $53,306,805 in management commitments to                     .. In response to 355 Hotline calls and letters, the
           more efficiently use resources;                                DIG made 150 referrals for further action.




ii
TABLE OF CONTENTS
INTRODUCTION AND OVERVIEW ......... .                                       SECTION VI - OTHER GSA COVERAGE ..... 15
REPORTING REQUIREMENTS .............. iv                                      A. Analysis of DIG Findings .................15
SECTION I - ORGANIZATION, STAFFING,                                           B. Statistical Highlights ..................... 15
AND BUDGET ..............................                               1     C. Significant Audits From Prior Reports ...... 15
  A. Organization. . . . . . . . . . . . ... . . . . . . . . . . . ..   1
                                                                            SECTION VII - STATISTICAL SUMMARY
   B. Office Locations .........................                        1   OF DIG ACCOMPLISHMENTS .............. 16
   C. Staffing and Budget. . . . . . . . . . . . . . . . . . . . ..     1     A. DIG Accomplishments ................... 16
   D. StaffinglBudget Issues ...................                        1     B. Summary Statistics ...................... 17
SECTION II - PUBLIC BUILDINGS                                               SECTION VIII - REVIEW OF LEGISLATION
SERVICE .................................... 2                              AND REGULATIONS ........................ 22
  A. Analysis of DIG Findings . . . . . . . . . . . . . . . .. 2              A. LegislationlRegulations Reviewed ......... 22
   B. Significant Problems, Abuses, Deficiencies,                             B. Significant Comments .................... 22
      and Recommendations... ........ . .......                         2   SECTION IX - OTHER OIG ACTIVITIES .... 23
   C. Statistical Highlights . . . . . . . . . . . . . . . . . . . .. 4       A. Fraud Prevention ........................ 23
   D. Significant Audits From Prior Reports. . . . ..                   4     B. DIG Management Initiatives ......... " ... 24
SECTION HI - FEDERAL SUPPLY                                                   C. Projects Sponsored by the PCIE ............ 25
AND SERVICES ............................. 7
  A. Analysis of OIG Findings . . . . . . . . . . . . . . . .. 7
   B. Significant Problems, Abuses, Deficiencies,                           APPENDIX I - AUDIT REPORT REGISTER .. 28
      and Recommendations...... . ... . . .......                       7
                                                                            APPENDIX II - DELINQUENT DEBTS ....... 45
   C. Statistical Highlights. . . . . . . . . . . . . . . . . . . ..    8
SECTION IV - INFORMATION RESOURCES
MANAGEMENT ............................ 10                                  LIST OF TABLES
  A. Analysis of DIG Findings ................. 10
   B. Significant Problems, Abuses, Deficiencies,                           1. Summary of DIG Audits .................... 16
       and Recommendations ................... 10
                                                                            2. Resolution ofOlG Audits .................... 17
   C. Statistical Highlights . . . . . . . . . . . . . . . . . . . .. 11
                                                                            3. Resolution Decisions on DIG Audits ......... 18
   D. Significant Audits From Prior Reports ...... 12
                                                                            4. Summary of Contract Audit Settlements ..... 19
SECTION V - FEDERAL PROPERTY
RESOURCES SERVICE ...................... 13                                 5. Investigative Workload ..................... 19
  A. Analysis of OIG Findings ................. 13
                                                                            6. Distribution of Cases Opened This. Period. . .. 20
   B. Significant Problems, Abuses, Deficiencies,
      and Recommendations ................... 13                            7. Summary of DIG Subject Referrals . . . . . . . . . .. 21
   C. Statistical Highlights ..................... 13                       8. Summary of Criminal and Civil Actions. . . . .. 21
   D. Significant Audits From Prior Reports ...... 14                       9. Criminal and Civil Recoveries ............... 21




                                                                                                                                          iii
     REPORTING R                             UIREMENTS
     The table below cross-references the reporting require-   port No. 96-829 relative to the 1980 Supplemental Ap-
     ments prescribed by the Inspector General Act of 1978     propriations and Rescission Bill is also cross-refer-
     to the specific pages where they are addressed. The       enced to the appropriate page of the report.
     information requested by the Congress in Senate Re-



                                                   SOURCE                                                PAGE

          Inspector General Act
            1. Section 4(a)(2) - Review of Legislation and Regulations ...................... .      22
            2. Section 5(a)(1) - Significant Problems, Abuses, and Deficiencies .............. . 2,7,10,13
            3. Section 5(a)(2) - Recommendations With Respect to Significant Problems,
               Abuses, and Deficiencies ................................................ . 2,7,10,13
            4. Section 5(a)(3) - Prior Recommendations Not Yet Implemented ............... . 4,12,14,15
            5. Section 5(a)(4) - Matters Referred to Prosecutive Authorities ................. .    20
            6. Sections 5(a)(5) and 6(b)(2) -Summary of Instances Where Information              None this
               Was Refused ........................................................... .          Period
            7. Section 5(a)(6) - List of Audit Reports ..................................... .      28
          Senate Report No. 96-829
            1. Resolution of Audits ..................................................... .                17
            2. Delinquent Debts ................................................ '" .... .                 45




iv
SECTION 1- ORGANIZATION, STAFFING,
AND BUDGET

Pursuant to the Inspector General Act of 1978, an Of-        C. Staffing and Budget
fice of Inspector General (DIG) was established within
the General Services Administration (GSA) on October         The approved Fiscal Year 1984 budget for the GSA
1, 1978. As currently configured, the DIG is divided         DIG is $19.5 million. Approximately $9.7 million was
into six offices that function cooperatively to perform      available for obligation during the reporting period.
the missions legislated by the Congress.                     The approved staffing level is 466 full-time equivalent
                                                             positions. As of March 31, 1984, the DIG employed
                                                             428 individuals.
A. Organization
The DIG consists of six functional elements. These are
the Offices of Audits; Investigations; Counsel to the In-    D. Staffing/Budget Is.sues
spector General; Policy, Plans, and Management Sys-
tems; Executive Director; and DIG Personnel.                 During the reporting period, the DIG faced three crit-
                                                             ical staffing/budget issues. We took decisive action on
The Office of Audits is a multidisciplinary unit staffed     the one issue within our power to control. The remain-
with financial and technical experts who provide             ing issues reside outside our direct control and con-
comprehensive internal (management) and external             tinue to be areas of concern.
(contract) audit coverage of GSA programs and opera-
                                                             For some time, the DIG's on-board staffing level has
tions. Headquarters divisions, structured to corre-
                                                             fallen short of authorized levels. Despite aggressive
spond to GSA's major functional areas, direct and
                                                             efforts to narrow this gap, recruitment actions met lim-
coordinate the audit program principally performed
                                                             ited success. In our judgment, part of the problem re-
by 11 field audit offices.
                                                             sided in the DIG's status as just one of many clients
The Office of Investigations manages a nationwide            handled by GSA's Office of Personnel.
program to prevent and detect illegal and/or improper
activities involving GSA programs, personnel, and op-        Relying upon the authority conferred by the IG Act, we
erations. Operations officers at headquarters coordi-        established the DIG Personnel Office on October 1,
nate the investigative activity of 11 field investigations   1983. Since its establishment, over 51 percent of the
offices and 4 resident offices.                              DIG vacancies have been filled. In addition, this office
                                                             has achieved considerable progress in addressing
The Office of Counsel to the Inspector General pro-          other major concerns leading to its creation. One of
vides expert legal advice regarding matters under DIG        these concerns is the need for an DIG employee devel-
review. Staff attorneys manage the civil referral system,    opment program that ensures that skill levels keep
review existing and proposed legislation and regula-         pace with technological advances and managerial ca-
tions, and prepare DIG subpoenas as required.                pabilities are developed before employees assume
The Office of Policy, Plans, and Management Systems          management positions. The DIG Personnel Office is
is a centralized planning and assessment function that       already surveying DIG requirements in this regard.
 oversees and evaluates the operations of the other DIG      The other major issues affecting DIG operations center
 offices. This office also coordinates specialized fraud     around the passage of the Second Continuing Resolu-
 prevention activities and provides data systems sup-        tion and the impact of the Pay Act. Regarding the for-
 port to all components.                                     mer, our concern focuses upon the Congress not
 The Executive Director provides centralized admin-          considering the President's Fiscal Year 1984 Budget
 istrative support, while the DIG Personnel Office, es-      Amendment. This amendment would have provided
 tablished this period, handles persoIlnel and employee      the DIG an additional $1.7 mil.lion and 45 workyears
 development activities.                                     over the initial level of $19.5 million and 466 work-
                                                             years. Without these additional resources, the DIG's
                                                             ability to provide adequate coverage of the GSA and
B. Office Locations                                          meet a variety of new requirements is severely ham-
The DIG is headquartered in Washington, D. c., at            pered.
GSA's Central Office building. Field audit and inves-        Moreover, mandated Pay Act increases will cost the
tigations offices are maintained in each of GSA's re-        DIG approximately $472,000 in Fiscal Year 1984.
gional headquarters - Boston, New York, Phila-               However, GSA did not submit a supplemental request
delphia, Atlanta, Chicago, Kansas City, Ft. Worth,           to cover any Agency Pay Act increases. Financing the
Denver, San Francisco, Auburn, and Washington, D. C.         $472,000 from within the DIG's current budget would
Resident investigations offices are located in               mean that we could not attain our approved staffing
Cleveland, St. Louis, Los Angeles, and San Juan, Puer-       level and we would have to defer important opera-
to Rico. The San Juan office includes an audit ca-           tional initiatives. The DIG is therefore actively pursu-
pability.                                                    ing alternatives to that course of action.                 1
    SECTION II -- PUBLIC BUILDINGS SERVICE
    The Public Buildings Service (PBS) manages most of            Management's record in implementing OIG space re-
    the Federal civilian inventory of space nationwide. Its       duction recommendations is spotty. An audit high-
    responsibilities extend from constructing, purchasing,        lighted in our last Report to the Congress identified
    and leasing space for Government use, to maintaining          potential savings of $6.5 million through renewal of a
    and protecting that space. In the first half of Fiscal Year   lease OptiOIl., backfilling the space, and relocating Gov-
    1984, the total available funding authority of the            ernment tenants from a nearby building into this
    Federal Buildings fund was approximately $1.77 bil-           space. A follow-on review, in process as of March 31,
    lion. During the same period, PBS obligated almost            1984, indicates that GSA did not reduce the amount of
    $912 million of these funds.                                  leased space in the nearby facility, thereby needlessly
    Commensurate with this level of activity, the GIG de-         expending over $50,000 per month in rent. Moreover,
    voted some 79,698 direct staffhours pursuing 1,541            GSA was considering renewing this lease through
    audit and investigative assignments. These figures re-        May 1985.
    flect 48 percent of total OIG direct staffhours and 52        A major step forward occurred this period when man-
    percent of all work assignments.                              agement made a commitment to implement OIG rec-
                                                                  ommendations on the proposed Federal building in
                                                                  Boston, Massachusetts. Over $19 million will now be
    A. Analysis of OIG Findings                                   saved by reworking the occupancy plan to achieve a
    The OIG implemented an integrated review approach             space utilization rate of 135 square feet per person.
    relative to PBS operations this period. We established        More efficient use of this space will decrease the need
    two primary areas for focus: space management and             to rent or own other space in the Boston area and open
    buildings management operations. Our internal audits          the door for disposal actions.
    assessed GSA effectiveness in space reduction ini-
                                                                  Savings like this attest to the need to pursue these
    tiatives, buildings operations, repairs and alterations,
                                                                  areas. We will continue focusing on these issues in the
    and energy conservation efforts. Our contract audits
                                                                  next 6 months using the same integrated approach.
    complemented this program by focusing upon pre-
    award reviews of guard and janitorial service con-
    tracts, architect-engineer proposals, and contractor          B. Significant Problems, Abuses,
    claims. Investigative efforts concentrated on white col-
    lar crimes, especially relative to the contracting func-         Deficiencies, and
    tion.                                                            Recommendations
    The importance of these issues prompted us to under-
    take two major fraud prevention initiatives in this area
    as well. The first, called Force L, was a multidisciplin-     $21.3 Million Recommended
    ary review of lease enforcement and administration
    practices that involved an investment of some 344 staff       for Avoidance
    days. Its purpose was to identify specific instances of       At the request of the Regional Administrator, the OIG
    waste, abuse, and mismanagement in the postaward              reviewed a proposed lawsuit settlement calling for
    leasing process. Many of the Force L findings, as dis-        modifications to an existing lease agreement. The law-
    cussed under fraud prevention initiatives in Section          suit arose from lessor claims, disallowed by GSA, of
    IX, are now being pursued through audit and inves-            increased electricity consumption, increased costs
    tigation.                                                     arising from construction changes and alleged Govern-
    Section IX also discusses a fraud prevention initiative       ment-caused delays, and lost income due to an in-
    in the area of buildings management operations. Some          ability to rent unoccupied space in the building
    250 staff days were devoted to reviewing the adequacy         because of strict security requirements necessitated by
    of internal controls and surfacing potential instances        the Government tenant. The settlement agreement pro-
    of wrongdoing at a major buildings management field           vided for Government payment of annual electricity
    office.                                                       costs, estimated at almost $1.5 million, in exchange for
    This integrated approach identified a series of impedi-       lessor concessions valued at that amount.
    ments, both internal and external to GSA, that impact         The GIG concluded that GSA presently holds a favor-
    significantly on the economy and efficiency of the            able long-term lease and the settlement agreement is
    space-related functions. Many represent operational           not equitable to the Government. We questioned the
    deficiencies correctable through straightforward man-         validity of $710,790 (or $21.3 million over the 30-year
    agement actions. Others involve more complex issues,          lease) of the $1.5 million in lessor concessions. Fur-
    such as resistance to space reduction initiatives among       thermore, we questioned the propriety of including a
    Federal agencies.                                             purchase option in the settlement agreement as one of
    Space reduction initiatives represent an immediate            the lessor concessions without obtaining a legal opin-
    area of concern for the OIG. Over 2 years have elapsed        ion on its propriety or evaluating the Government's
    since the initiation of this program and its promise, in      long-term need for the building. This option ac-
    terms of greater economy and efficiency, remains              counted for over $359,600 of the costs questioned.
    largely unrealized. GSA must begin to capitalize on           In our report dated March 6, 1984, we recommended
2   these opportunities.                                          that the Regional Administrator obtain a legal opinion
regarding the propriety of and the authority for includ-   sonneI, and inadequate operating procedures. Further,
ing a purchase option in the lease modification agree-     lessors were not being required to correct identified life
ment. If found to be legal, we recommended that the        safety deficiencies in leased buildings.
Government evaluate its long-term need for this build-     We recommended a series of actions aimed at correct-
ing. If needed, we recommended a recalculation of the      ing the identified deficiencies. However, the preva-
value ofthis option utilizing present valuetechniques.     lence of these problems suggest, more than just isolated
The Regional Administrator concurred in our findings       incidences and may indicate a lack of emphasis on fire
and recommendations. We are awaiting action plans          and life safety issues. For this reason, we intend to is-
from the Regional Administrator and the Commis-            sue a consolidated report during the next period that
sioner, PBS.                                               will bring these critical issues to the attention of GSA's
                                                           top management officials.
GSA Efforts to Reduce Space
Rental Costs                                               $1,227,322 Avoided Through
The DIG reviewed the space management program in           Dismissal of Contractor's Claim
a major GSA region to determine the degree of success
achieved in reducing Government rental costs by elim-      As a result of joint audit and investigative work, a
inating unnecessary leased space. Our review focused       $1,227,322 claim that had been approved by the GSA
on activity occurring between October 1981, when           Board of Contract Appeals was dismissed for lack of
GSA started a major space reduction program, and           jurisdiction. The claim involved increased costs due to
February 1983, when GSA formally issued implement-         alleged Government-caused delays on alteration
ing regulations for the program.                           changes required under the lease.
We found that during this period GSA did not reverse       In the process of reviewing the contractor's proposal,
the historic trend of increases in both the amount and     DIG auditors found certain conditions, information,
cost of leased space. In fact, the inventory of leased     testimony, and monetary amounts that appeared sus-
office space grew by some 139,000 square feet while        pect and warranted investigation. DIG investigation
rental costs rose by more than $51 million. These in-      surfaced findings significant enough to warrant refer-
creases occurred despite concurrent reductions in the      ral to the ASSIstant U.S. Attorney, who agreed to in-
Federal civilian work force in that region.                stitute a false claims case. The matter is currently
                                                           under grand jury investigation Civil fraud remedies
A draft of this report was issued to GSA management
                                                           are also being pursued.
officials in November 1983. Their January 1984 re-
sponses raised issues that required additional exam-       The final audit report, dated October 18, 1983, was is-
ination, extending the period reviewed through             sued without recommendations due to dismissal of
February 1984.                                             the claim during the course of our review.
The overall review identified several major reasons for
these increases. First, GSA awarded succeeding leases      Two Convicted for Conspiring to
without making concerted efforts to screen space re-
quirements against available vacant space already in
                                                           Defraud the Government
the Government inventory, thereby missing oppor-           The OIG investigated allegations that the second-
tunities to avoid expenditures of $10.4 million. Sec-      lowest bidder on a GSA painting solicitation at-
ond, customer agencies resisted GSA efforts to utilize     tempted to influence the low bidder to withdraw its
space more cost effectively. Finally, weaknesses in        bid. As a result, two individuals were indicted on
GSA policy and procedures hampered performance in          charges of conspiracy to defraud the Government and
this area.                                                 theft of Government property on November 21,1983.
                                                           Both subjects pled guilty to one count of conspiracy to
In our report dated March 30, 1984, we recommended
                                                           defraud the Government and, in February 1984, were
that the Commissioner, PBS, develop procedures for
                                                           sentenced to 18 months probation and fined $500.
screening space needs against available vacant space;
consider the use of incentives to motivate customer
agencies to reduce space; and implement specific pol-      Opportunities for Savings Exist
icy and procedure changes to improve GSA perfor-           Through Energy Conservation
mance in this area. Further, we identified potential
                                                           Energy conservation represents a ready source for tan-
savings in excess of $4 million through implementa-
                                                           gible Government savings. This period, the DIG fo-
tion of specific operational recommendations.
                                                           cused substantial resources on evaluating energy con-
We are awaiting the Commissioner's action plan for         sumption practices in an attempt to improve con-
implementing these recommendations.                        servationefforts.
                                                           In two reports, dated March 12, 1984 and March 14,
Fire and Life Safety Systems                               1984, we identified annual savings of $477 ,000, most-
The OIG expended substantial resources this period         ly available through simple modifications to equip-
reviewing fire and life safety systems in Government-      ment and operational procedures at three Federal
occupied space. In seven reports, dated November 23,       buildings. Such modifications included turning off el-
1983 through March 26,1984, we identified a series of      evator shaft lights, disconnecting a 50-ton refrigeration
deficiencies including non-operational fire alarm and      unit that exceeded room requirements, and utilizing
smoke control systems, malfunctioning emergency            alternative lighting sources that are more energy effi-
control centers, insufficiently trained operating per-     ciem.                                                        3
    The cognizant Regional Administrators concurred in        C. Statistical Highlights
    most of the recommendations contained in our draft
    reports. We are awaiting their responses to the final     The following table compares OIG activity and accom-
    reports.                                                  plishments within the PBS to the overall totals for the



          Activity                                                                       PBS              All GSA

          Audit Reports Issued ........................................... .        221                        420
          Recommended Cost Avoidance ................................. . $49,928,803                  $112,442,170
          Recommended Cost Recovery .................................. .       $565,157                 $3,607,466
          Management Commitments to Avoid Costs ....................... . $33,227,710                 $53,306,805
          Management Commitments to Recover Funds .................... .       $884,414                $15,492,336
          Percentage of Recommended Cost Avoidance
          Agreed to by Management ...................................... .           93                          83
          Percentage of Recommended Cost Recovery
          Agreed to by Management ...................................... .           99                          73
          Unresolved Audits Older Than 6 Months .......................... .         30                          38
          New Investigative Cases ....................................... .         136                         384
          Criminal Referrals (Subject) ..................................... .       45                         171
          Civil Referrals (Subject) ........................................ .        1                          19
          Administrative Referrals (Subject) ............................... .      203                         350
          Suspension/Debarment Referrals (Subject) ....................... .         21                          42
          Indictments/Informations/Complaints ............................ .         10                          28
          Convictions .................................................. .            5                          22
          Civil Settlements/Judgments .................................... .          4                          18


    period. As the data indicate, major portions of our ac-   In our last report, we advised that the complexity of the
    complishments are traceable to PBS programs and op-       required actions complicated management's formula-
    erations.                                                 tion of a comprehensive time-phased action plan. Ac-
                                                              cording to GSA audit resolution policy, resolution oc-
                                                              curs only when the OIG agrees with management's
    D. Significant Audits From                                written determination and comprehensive action plan
                                                              for implementation.
       Prior Reports
    According to GSA's audit resolution system, the Office    After numerous unsuccessful attempts to obtain an ac-
    of Audit Resolution, Office of Policy and Management      tion plan from regional officials and the Commis-
    Systems, is responsible for ensuring implementation       sioner, PBS, the OIG finally received an action plan on
    of resolved audit recommendations. Therefore, this of-    March 30, 1984. As submitted, the plan does not re-
    fice furnished the status information on implementa-      spond to the recommendation regarding the appropri-
    tion presented herein.                                    ate use of life cycle costs. We are currently reviewing
                                                              the responsiveness of the remainder of the plan. How-
    Twelve audits highlighted in prior Reports to the Con-    ever, resolution cannot be achieved until a comprehen-
    gress require action by PBS management before they        sive plan is obtained.
    are fully implemented. One report is still unresolved,
    while milestone dates have been missed on another.
    The remaining ten reports are being implemented ac-       2. Significant Audits Not Being
    cording to action plan dates.
                                                                  Implemented According to
    1. Unresolved Significant Audits                              Established Milestones
    Inspection of the Lease Construction of a                 Implementation of the Public Buildings
    Laboratory Facility                                       Cooperative Use Act
    Period First Reported: October 1, 1982 to                 Period First Reported: October 1, 1982 to
    March 31, 1983                                            March 31, 1983
    This review disclosed that inadequate contract admin-     Our review disclosed a number of problems associated
    istration and a lack of technical input in the con-       with GSA's implementation of the Public Buildings
    ceptual, design, and construction phases of a             Cooperative Use Act of 1976. The report contained 18
    laboratory facility has resulted and/or will result in    recommendations; 13 are implemented.
    Government losses of over $1.5 million. As of March       Management is overdue on three of the unimple-
4   31, 1984, this audit remains unresolved.                  mented recommendations, involving preparation of
monthly status reports to Congress and development         plemented. However, no monies had been collected as
of policy on outleasing. The original action plan date     of March 31, 1984. GAO advises that status informa-
of August 1983 was extended to December 1983. This         tion may be available by May 30, 1984.
date was not met. No extension request had been re-
ceived by the OIG as of March 31, 1984.                    Controls Over Costs for Repairs,
The remaining two recommendations, dealing with            Alterations, and Improvements to
the outleasing of commercial malls, were originally        Leased Space
due for completion in May and September 1983. Both
dates have been extended to April 1984.                    Period First Reported: October 1, 1982 to
                                                           March 31, 1983
                                                           This audit found that GSA policies and procedures
3. Significant Audits Being                                did not effectively control costs associated with re-
    Implemented According to                               pairs, alterations, and improvements to leased space.
    Established Milestones                                 The report contained four recommendations; three are
                                                           implemented.
Contracting for Commercial                                 The remaining recommendation addressing the need
Appraisal Services                                         for cost verification policies was due for completion in
                                                           December 1983. This date was renegotiated and full
Period First Reported: April 1, 1982 to                    implementation is now scheduled for April 1984.
September 30, 1982
This audit of commercial appraisal service contract        Controls Over Lease Renewal Dates
awards found that GSA policies did not provide for         Period First Reported: October 1, 1982 to
adequate competition. The report contained three rec-      March 31, 1983
ommendations; two are implemented.
                                                           This audit identified errors in the PBS Information
The third recommendation, involving revisions to ap-       System that could result in missed lease renewal op-
praisal handbooks by both PBS and the Federal Prop-        tions. The report contained two major recommenda-
erty Resources Service, remains unimplemented. PBS         tions to improve controls over lease data; one is
revisions were originally due March 31, 1983. Suc-         implemented.
cessive extensions to July 31, 1983, November 30, 1983,
March 30, 1984, and July 30, 1984 were granted. All        The remaining recommendation, calling for periodic
action should now be completed by July 30, 1984.           regional reviews, was scheduled for completion by
                                                           March 1984. That date was not met. The DIG is review-
Reimbursable Work Authorizations                           ing a PBS request to extend the due date to December
                                                           1984.
Period First Reported: October 1,1981 to
March 31, 1982                                             Poor Inspection of Repair and Alteration
This review disclosed that GSA was performing work         Contract Work
for tenant agencies under reimbursable agreements
without ensuring that the Congress had approved            Period First Reported: April 1, 1982 to
these expenditures. We recommended that GSA im-            September 30, 1982
plement procedures requiring agencies to demonstrate       This audit of repair and alteration work on a ware-
Congressional approval when requesting reimburs-           house found numerous contract deficiencies, defects,
able services.                                             and omissions that went unnoticed by GSA inspec-
The revision to GSA Form 2957-RWA still remains un-        tors. The report contained nine recommendations;
implemented. Milestone dates were extended from            eight are implemented.
January 1983 to September 1983 to December 1983.           The remaining recommendation, requiring the con-
The latest renegotiation calls for implementation by       tracting officer to have the contractor perform con-
July 1984.                                                 tractually required work or obtain a credit, is still being
                                                           pursued. The issue has been complicated by a change
Contract for New Federal Office Building                   in ownership of the firm.
Improperly Administered
                                                           An Approach to Improving GSA's
Period First Reported: October 1, 1981 to
March 31, 1982
                                                           Leasing Program
The OIG, in its original audit of the new Federal office   Period First Reported: October 1, 1981 to
building in Hato Rey, Puerto Rico, recommended that        March 31, 1982
management initiate action to recover overpayments         This compendium report identified the need for more
to a contractor. A later OIG implementation review,        aggressive GSA action in establishing and enforcing
discussed in our last Report to the Congress, found that   leasing policy. Of the 14 recommendations contained
management actions in response to this recommenda-         in this report, 13 are implemented.
tion were inadequate. We offered three additional rec-     Implementation of the remaining recommendation,
ommendations; two are implemented.                         addressing the development of legislative proposals
The remaining recommendation, requiring that con-          that provide latitude in tailoring space requirements,
tact be maintained With the General Accounting Office      was delayed by the revision of the Uniform Federal
(GAO) relative to claim collection action, is being im-    Accessibility Standard. On March 13, 1984, the Archi-         5
    tectural and 'fransportation Barriers Compliance           found that this policy created customer dissatisfaction
    Board signed off on the proposed standard. PBS is cur-     and wasted millions of dollars. The report contained
    rently finalizing the standard prior to clearance and      six recommendations; four are implemented,
    promulgation. Full implementation is scheduled for
    July 1984.                                                 The remaining recommendations require implemen-
                                                               tation of an acoustics training program and develop-
    Deteriorated Roof Adversely Affecting                      ment of guidelines for decisions on partitioning open-
    Stockpiled Asbestos                                        space areas. Both recommendations were scheduled
                                                               for completion in March 1984. The due dates have
    Period First Reported; April 1, 1982 to                    been renegotiated to May 1984.
    September 30, 1982
    This review identified deterioration of the materials
    covering stored asbestos that could result in potential
    safety hazards. The GIG recommended that immediate
    action be taken.                                           Administrative Fund Control Violation
    A GSA task force developed a plan to either sell or bury
    the asbestos by May 1983. Numerous revisions to this
    date have been granted. Currently, final action is         Period First Reported; April 1, 1983 to
    scheduled for June 30, 1984. As of March 31, 1984, all     September 30,1983
    asbestos had been removed from the site to a land fill.
    Decontamination of the depot should be completed by        This audit identified inadequacies in the controls gov-
    the June 1984 date.                                        erning management of the Construction Services Fund
                                                               that allowed an administrative fund control violation
    Application of the ICB System Concept                      to occur. The report contained five recommendations;
                                                               three are implemented.
    Period First Reported; October 1, 1982 to
    March 31, 1983                                             The remaining recommendations are being imple-
    This review of the mandatory use ofIntegrated Ceiling      mented according to schedule. Full implementation is
    and Background (ICB) systems in Federal facilities         scheduled for November 1984.




6
SECTION III --- FEDERAL SUPPLY AND SERVICES
The Office of Federal Supply and Services (FSS) oper-       alogue has greatly improved the audit selection
ates a Government-wide service and supply system            process by obtaining information from contracting of-
that contracts for and distributes billions of dollars      ficials that can be used in the OIG planning process.
worth of supplies, materials, and services for customer     Moreover, the OIG has sponsored nine training ses-
agencies each year. FSS also controls GSA's personal        sions (ten more are planned) on multiple award audit-
property program. In the first half of Fiscal Year 1984,    ing techniques for these officials. Our aim is to increase
FSS obligated approximately $94.6 million in direct         understanding of the techniques involved so that this
operating expense appropriations. Estimated sales           knowledge can be applied successfully in negotiations
through the General Supply Fund during the same             with contractors. Further, we have improved account-
period exceeded $783 million.                               ability over preaward audit results by insisting that
Consistent with this level of activity, the OIG expended    they be subject to GSA's audit resolution system, al-
some 51,863 direct stafthours pursuing 871 audit and        though not specifically required by OMB directive.
investigative assignments. These statistics reflect 31      Increased audit coverage, complemented by greater
percent of total OIG direct stafthours and 29 percent of    cooperation, is already having an effect. At the same
all work assignments.                                       time, media coverage of the recent major settlements is
                                                            resulting in a trend toward voluntary refunds from
                                                            firms who have overcharged the Government. One ma-
A. Analysis of OIG Findings                                 jor firm, having undergone a preaward audit resulting
GIG coverage of the FSS concentrated primarily on the       in a management commitment to avoid $4 million,
contracting function, consistent with the critical is-      voluntarily refunded $770,000 to the Government
sues developed in our planning workshops for Fiscal         when notified of a pending postaward of a prior con-
Year 1984. A major part of our audit and investigative      tract. Other similar refunds have been received. These
effort focused on the Negotiated Commercial Item            actions hold great promise for an improved Govern-
Schedules (NCIS) program, formerly known as the             ment posture in its contracting function.             .
Multiple Award Schedules Program (MASP).
Several civil settlements amounting to over $10.8 mil-      B. Significant Problems, Abuses,
lion, detailed herein and in the section summarizing
OIG activity within the Office of Information Re-              Deficiencies, and
sources Management (OIRM), attest to the continued             Recommendations
vulnerability of the Government to overcharges under
NCIS. As a result of this continuing vulnerability, the     $1.5 Million Civil Settlement and
OIG developed a new strategic approach to the pro-
gram that emphasizes greater preaward coverage,             Successful Prosecution of Defective
complemented by management support initiatives.             Pricing Charges
This approach is resulting in audit coverage that is bet-   In February 1984, a multiple award schedule supplier
ter targeted and more successfully applied by GSA           of duplicating equipment and supplies pled guilty to a
contracting officials.                                      criminal information charging the firm with making
Preaward audits verify that the discount and pricing        false statements. The firm admitted submitting false
data submitted in response to GSA solicitations are         pricing data to GSA when negotiating contracts for
current, accurate, and complete before a contract           fiscal years 1978, 1979, and 1980, and misrepresent-
award. Conversely, postawards review these data after       ing its commercial pricing practices. The firm was
contract award and involve the extensive reviews of         fined $20,000.
sales invoices often resulting in the recoveries detailed
                                                            On February 14, 1984, the firm settled its potential civil
herein.
                                                            fraud liability to the Government for $1.5 million. An
Preawards, in addition to minimizing opportunities          initial payment of $7 50,000 was received on March 14,
for overcharges up-front, expend one-third less audit       1984; the balance plus interest is payable by March 14,
time than postaward audits. By emphasizing pre-             1985.
award audits, the OIG can provide more coverage of
                                                            The false disclosures, first surfaced through a
the program. This increased coverage has the addi-
                                                            postaward audit, were further developed by OIG in-
tional benefit of displaying greater OIG visibility to      vestigators prior to referral for criminal and civil ac-
GSA vendors, thereby demonstrating an Agency com-
                                                            tions. Government sales under the contracts exceeded
mitment to vigorously enforce contract terms.               $10 million.
Providing greater coverage is, however, only half of the
picture. To be successful, audit coverage must be on
target and audit results must be successfully applied       $1 Million Recovered From Business
in negotiations with contractors. These areas comprise      Equipment Supplier
the focus of our management support initiatives.            On February 28, 1984, a major supplier of business
A series of meetings have been held between GIG and         equipment and services agreed to pay the Government
contracting officials to establish better lines of com-     $1 million in settlement of defective pricing, price re-
munication and promote greater cooperation. This di-        duction, and other contract violations disclosed             7
    through seven OIG audits. The postaward audit re-          oil additives, a contracting officer rejected a firm's best
    ports, issued between April 1981 and November 1983,        and final offer, saving the Government unnecessary ex-
    questioned costs of $1,558,935 on four FSS contracts       penditures of $220,000. The audit, issued on October
    and three OIRM contracts.                                  4,1983, found the offer unacceptable as a basis for ne-
    Under the terms of the agreement, the firm was de-         gotiation due to incomplete and inaccurate pricing
    barred from doing business with the Government             data, including undisclosed discounts and lower
    through March 31, 1984 and must take certain actions       prices to non-GSA customers.
    to protect the Government's interests in future dealings   The savings of $2 20,000 will be realized in subsequent
    with the firm.                                             procurements of comparable products at competitive
                                                               prices.
    Supplier Agrees to Settle Defective
    Pricing Issues for $143,500                                Four Convicted for Theft of
    As a result of OIG audit and investigation, a $143,500     Government Property
    settlement was successfully negotiated with a multi-       OIG investigation of the Federal surplus property pro-
    ple award schedule supplier in December 1983. The          gram disclosed a pattern of fraudulent acquisitions on
    Government alleged that the firm, a supplier of com-       the part of four employees of a western school district.
    puter accessories, failed to report certain commercial     Following a criminal referral, they were indicted on
    discounts in its cost and pricing data even though it      felony charges of making false, fictitious, and fraudu-
    certified that it disclosed all discounts. The Govern-     lent statements in order to acquire Federal property for
    ment further asserted that the failure to disclose these   their personal use. In December 1983, they entered
    discounts constituted a breach of contract and violated    guilty pleas to an information charging them with mis-
    the False Claims Act.                                      demeanor theft of Government property and aiding
    The firm achieved Government sales of more than $10        and abetting.
    million under the three contracts. Two of these con-       On February 3,1984, all four were placed on probation
    tracts were with FSS, while the third was with OIRM.       for one year, fined, ordered to perform community
    The Government received a certified check in the           service work, and directed to make restitution to the
    amount of $143,500 on December 9,1983.                     Government. The fines ranged from $100 to $300,
                                                               while the hours of community service ranged from 100
                                                               to 200 hours.
    $305,362 Recovered From
    Equipment Manufacturer                                     Corporate President Submitted False
    The OIG performed a postaward audit of a multiple          Testing Report
    award schedule contract for the sale and rental of dic-
    tation/transcription equipment. Review of the pricing      An OIG investigation revealed that a supplier of indus-
    and sales data submitted by the firm revealed viola-       trial cleaning cloths submitted an altered laboratory
    tions of the contract's defective pricing clause because   testing report to GSA. The report falsely made it appear
    discounts granted to several State governments were        that the firm's products met the contract specifica-
    not disclosed. Such discounts ranged as high as 72         tions.
    percent.                                                   In December 1983, the company president pled guilty
    Accordingly, in our report dated December 5,1983, we       to a one-count information charging him with submit-
    recommended a cost recovery of $354,629. The firm          ting a false document. He was sentenced to 1 year of
    agreed to refund $305,362 in negotiations with the         probation and fined $10,000. In addition, the firm
    contracting officer.                                       agreed to pay damages of $209,000 for supplying de-
                                                               fective materials.

    $220,000 Avoided on
    Chemical Procurement
                                                               c.   statistical Highlights
                                                               The following table compares OIG activity and accom-
    Acting on the findings of an OIG audit of a pricing        plishments within the FSS to the overall totals for the
    proposal for water treatment chemicals and boiler fuel     period.




8
Activity                                                          FSS          All GSA
Audit Reports Issued ........................................... .     141            420
Recommended Cost Avoidance ................................. . $11,105,022   $112,442,170
Recommended Cost Recovery .................................. . $2,682,021      $3,607,466
Management Commitments to Avoid Costs ....................... . $7,181,275   $53,306,805
Management Commitments to Recover Funds .................... . $3,458,742     $15,492,336
Percentage of Recommended Cost Avoidance
Agreed to by Management ...................................... .        49            83
Percentage of Recommended Cost Recovery
Agreed to by Management ...................................... .        52            73
Unresolved Audits Older Than 6 Months .......................... .       4            38
New Investigative Cases ............................... " ...... .     180           384
Criminal Referrals (Subject) ..................................... .    94           171
Civil Referrals (Subject) ........................................ .    13            19
Administrative Referrals (Subject) ............................... .    82           350
Suspension/Debarment Referrals (Subject) ....................... .      20            42
Indictments/Informations/Complaints ............................ .      14            28
Convictions .................................................. .        15            22
Civil Settlements/Judgments .................................... .      10            18




                                                                                            9
     SEC ON IV -IN                                  RMATION RESOURCES
        NAGE    T
     The Office of Information Resources Management             ing computers are becoming more prevalent, this find-
     (OIRM) coordinates and directs a comprehensive Gov-        ing carries great impact for the Agency. Decisive action
     ernment-wide program for managing and procuring            must be taken to solidify responsibility for information
     automated data processing (ADP) and telecom-               security and give computer security programs re-
     munications equipment and services. In the first half      newed priority.
     of Fiscal Year 1984, OIRM obligated approximately          Finally, the OIG took major exception to planned
     $12.7 million in direct operating expense appropria-       changes to a combined personnel and payroll system
     tions. Sales via the Federal Telecommunications Fund       that, in our opinion, will result in unnecessary ex-
     and the ADP Fund during the same period exceeded           penditures of$7 million. Part ofthese expenditures de-
     $423 million.                                              rive from acquiring an automated personnel system
     Collectively, the OIG expended some 11,258 direct          that we believe to be obsolete, while the remainder de-
     staffhours pursuing 164 audit and investigative as-        rive from leasing contractor facilities to operate the
     signments. These figures reflect almost 7 percent of       payroll system when excess capacity exists on GSA
     total OIG direct staffhours and almost 6 percent of our    computers. OIRM does not agree with our position;
     work assignments.                                          these issues are therefore before the Agency Audit Fol-
                                                                lowup Official for resolution.

     A. Analysis of OIG Findings                                B. Significant Problems, Abuses,
     The OIG tailored its audit coverage of the OIRM to em-        Deficiencies, and
     phasize two critical issues: the effect of the new
     competitive telecommunications industry structure             Recommendations
     upon the Government and the effectiveness of planned
     and existing ADP systems. The OIG also focused on          Electronics Firm Refunds $5 Million
     expanded preaward coverage of OIRM's contracting           On November 18, 1983, the Government entered into
     program in connection with our strategy for reducing       an agreement with a multiple award schedule sup-
     the Government's vulnerability to overcharges.             plier of electronic equipment whereby the firm agreed
     Audits in the telecommunications area demonstrate          to refund $5 million. In addition, the firm agreed to
     that GSA is not currently in a posture to operate effec-   implement and/or formalize supervisory, accounting,
     tively in the competitive environment brought about        and operational controls.
     by the breakup of the telecommunications industry.         OIG audit work found that the firm failed to disclose
     With some 384 systems that could be competed, OIRM         complete commercial price and discount information
     lacks comprehensive plans for a competitive procure-       during negotiations for contracts covering the years
     ment program and sufficient skilled personnel to expe-     1977 through 1980, and failed to give the Government
     dite such an undertaking. Moreover, GSA is not             price reductions to which it was contractually entitled.
     capitalizing on short-term opportunities for savings by    After extensive audit and investigative involvement,
     competitively procuring customer premise equip-            the OIG referred the matter to the Department of Justice
     ment, such as telephones.                                  for prosecution.
     The OIG estimates that some $36 million could be           A certified check in the amount of $5 million was de-
     saved each year through procuring these 384 systems        posited in the 'freasury in December 1983.
     competitively. OIRM likewise estimates that savings of
     $24 million will accrue over the life of the 65 systems    Computer Company Refunds
     already competed. Clearly, these kinds of savings must
     be pursued.                                                $3.2 Million
     The OIG intends to work closely with management in         On December 29,1983, a contractor agreed to pay the
     formulating the actions that will place GSA in a posi-     Government $3.2 million to settle its potential civil
     tion to operate effectively in this new environment. In    fraud liability. The Government alleged that the firm, a
     the interim, we have recommended that GSA cap-             multiple award schedule supplier of computer equip-
     italize on the savings available through procuring,        ment, violated the defective pricing/price reduction
     rather than leasing. telephones whenever cost effec-       clauses in four contracts it held with OIRM. Govern-
     tive. We will continue our emphasis in this area over      ment sales under these contracts amounted to $70 mil~
     the next 6 months.                                         lion.
     Relative to ADP systems, our efforts this period sur-      OIG audit work found that the firm failed to fully dis-
     faced a critical finding concerning computer security      close its commercial price and discount arrangements
     within the GSA. GSA systems, which disburse and ac-        in negotiations with OIRM. Subsequent investigation
     count for some $6 billion in Government funds an-          resulted in a referral to the Department of Justice.
     nually, are highly susceptible to loss through fraud,      The firm issued a certified check in the amount of $3.2
10   misuse, and disaster. In this age where crimes involv-     million on January 3,1984.
Competing Telephone Systems                              In our November 29,1983 report, we recommended
                                                         that the Administrator terminate plans to implement
Procurements                                             PIRS unless supported by a plan yielding greater cost
Technological advancements in the telecommunica-         benefits. Failing formulation of such a plan, we recom-
tions industry, coupled with landmark decisions, have    mended that GSA develop an in-house system tailored
created a competitive industry structure. Recognizing    to meet its specific requirements. We also recom-
this shift, and mindful of a 1974 Comptroller General    mended that the Assistl;mt Administrator, OIRM, oper-
decision requiring GSA to obtain competition to the      ate the payroll system on existing GSA computer
greatest extent possible, the OIG reviewed OIRM's        facilities.
efforts to competitively procure telephone systems and
equipment to determine if GSA is maximizing such         The Assistant Administrator, OIRM, responded to the
cost saving opportunities.                               report on behalf of the Administrator. He advised that a
                                                         more beneficial plan had been developed for imple-
We found that only 65 of the 449 telephone systems       menting the personnel system. The Assistant Admin-
under GSA management had been competitively pro-         istrator did not concur in our recommendation to
cured. Although these procurements account for esti-     operate the payroll system on GSA facilities. OIRM in-
mated savings of $24 million over the life of these      tends to relocate the system to a contractor facility.
systems, an additional $36 million could be saved an-
nually by competing the remaining systems. More-         The OIG, while concurring that the new plan for im-
over, another $1.7 million could be saved by             plementing the personnel system would yield cost
competitively procuring customer premise equipment       savings of $6 million, believes that additional action<l
(such as telephones) on these systems as an interim      are necessary, including cost benefit analysis. More-
measure.                                                 over, we strongly oppose relocation of the payroll sys-
                                                         tem. Therefore, we reaffirmed our recommendation,>
In our report dated February 13, 1984, we recom-
                                                         and referred them to the Audit Followup Official for
mended that the Assistant Administrator, OIRM, de-
                                                         resolution.
velop a comprehensive plan for competitive telephone
systems procurements; contract for technical services
to overcome in-house staffing limitations and expedite   Improvements Needed in Computer
competitive procurement efforts; and require the com-
petitive procurement of customer premise equipment       Security Program
when cost effective.                                     Each year, GSA expends some $30 million to operate
The Assistant Administrator agreed with the findings     data processing equipment that disburses and ac-
and recommendations contained in our draft report.       counts for approximately $6 billion in Government
We are awaiting OIRM's action plan for implementa-       funds. This period, the OIG evaluated GSA computer
tion.                                                    security programs to determine compliance with ap-
                                                         plicable directives and assess their vulnerability.
                                                         We found that GSA systems are highly susceptible to
$7 ~illion in Unnecessary Costs                          loss through fraud, misuse, and disaster, especially
Associated With Unjustified Systems                      fire. At least part of this problem is attributable to the
Changes                                                  diffusion of responsibility for information security
The OIG evaluated the financial and operational im-      within GSA. Therefore, in our report dated March 30,
                                                         1984, we recommended 20 discrete actions aimed at
pact of planned changes to the Manpower and Payroll
                                                         creating a single, independent organization vested
Statistics (MAPS) system, a combined payroll and per-
                                                         with complete responsibility for information security;
sonnel system. The changes involved: (1) implement-
                                                         instituting a comprehensive security program based
ing the U.S. Air Force Personnel Information
                                                         on sound planning; and providing for continuous
Resources System (PIRS) within GSA and (2) moving
                                                         monitoring of weaknesses in computer security safe-
the payroll system from a GSA computer facility to a
                                                         guards.
contractor facility.
                                                         Management generally agreed with the recommenda-
The review identified at least $7 million in unneces-
                                                         tions contained in our draft report. We are awaiting
sary Government costs associated with the planned
                                                         their response to the final report.
changes over a 7-year life cycle. Approximately $2.8
million derive from the relocation of the payroll sys-
tem, and the remaining $4.2 million derive from im-
plementation of PIRS. These expenditures could be        C. statistical Highlights
avoided by utilizing GSA computer facilities to oper-    The following table compares OIG activity and accom-
ate the payroll system and developing and operating      plishments within the OIRM to the overall totals for
an in-house personnel system.                            the period.




                                                                                                                      11
          Activity                                                                     OIRM             All GSA
          Audit Reports Issued ........................................... .           35                    420
          Recommended Cost Avoidance ................................. . $44,408,345                $112,442,170
          Recommended Cost Recovery .................................. .        $352,587              $3,607,466
          Management Commitments to Avoid Costs ....................... . $9,570,087                $53,306,805
          Management Commitments to Recover Funds .................... .       $9,148,361            $15,492,336
          Percentage of Recommended Cost Avoidance
          Agreed to by Management ...................................... .            103                     83
          Percentage of Recommended Cost Recovery
          Agreed to by Management ...................................... .             79                     73
          Unresolved Audits Older Than 6 Months .......................... .            2                     38
          New Investigative Cases ....................................... .            18                    384
          Criminal Referrals (Subject) ..................................... .          7                    171
          Civil Referrals (Subject) ........................................ .                                19
          Administrative Referrals (Subject) ............................... .         26                    350
          Suspension/Debarment Referrals (Subject) ....................... .                                  42
          Indictments/Informations/Complaints ............................ .                                  28
          Convictions .................................................. .                                    22
          Civil Settlements/Judgments .................................... .            1                     18



     D. Significant Audits From Prior                         ADP Fund Billings and Receivables
        Reports                                               Period First Reported: April 1, 1983 to
     According to GSA's audit resolution system, the Office   September 30, 1983
     of Audit Resolution, Office of Policy and Management
     Systems, is responsible for ensuring implementation      This review surfaced the need to improve billing and
                                                              collection processes associated with the ADP Fund.
     of resolved audit recommendations. Therefore, this of-
                                                              The report contained six recommendations; two are
     fice furnished the status information on implementa-
     tion presented herein.                                   implemented.
     The only unimplemented significant audit from prior      Action on the remaining recommendations is proceed-
     Reports to the Congress is being implemented accord-     ing according to established milestones. Full imple-
     ing to established milestones.                           mentation is scheduled for June 1984.




12
SECTION V -- FEDERAL PROPER                                                         RESOURCES
SERVICE
The Federal Property Resources Service (FPRS) man-         A test of the transactions conducted between March 1,
ages the Strategic and Critical Materials Stockpile,       1982 and March 31, 1983 identified seven additional
oversees all stockpile acquisitions and sales, and dis-    checks, valued at $284,300, in office safes at four re~
poses of Government-owned real property. In the first      gional disposal offices. Moreover, we found that the
half of Fiscal Year 1984, FPRS obligated almost $20.5      Government might not be collecting the full proceeds
million in direct operating expense appropriations.        from property sales because accounts receivable are
During the same period, the Stockpile Transaction          not being established for such transactions.
Fund obligated over $55 million.
                                                           In our December 7,1983 report to the Commissioner,
The GIG devoted 2,925 direct staffhours pursuing 79
                                                           FPRS, we recommended that transfers of real pro petty
audit and investigative assignments. This level of
                                                           sales receipts occur on the day of receipt; future pur-
effort represents about 2 percent of our total direct
                                                           chasers transmit their payment directly to regional fi-
staffhours and 3 percent of our work assignments.          nance divisions; and coordination occur between
                                                           regional disposal and finance offices so that all bal-
A. Analysis of OIG Findings                                ances due on real property sales are recorded in ac-
Presidential emphasis on disposal of excess Govern-        counts receivable.
ment-owned real property set the tone for GIG              The Commissioner concurred in the recommenda-
coverage of FPRS programs during Fiscal Year 1984.         tions and initiated immediate corrective action.
In the first 6 months, we emphasized reviewsevaluat-
ing GSA's readiness to both identify unnecessary
property and process the revenues resulting from dis-      Real Property Disposal Operations
posal actions.                                             Executive Order No. 12348 requires GSA to continu-
Limited findings relative to GSA's effectiveness in sur-   ously survey real property holdings of all executive
veying real property utilization and identifying un-       agencies to verify need and utilization efficiency. A re-
needed sites suggest that improvements may be              gional review of real property disposal operations dis-
needed in this area. Future reviews will provide           closed that GSA is not effectively surveying real
greater insight into the applicability of the findings     property. We found that survey activity in this region is
disclosed regionally this period.                          limited in scope to specific sites and does not include
                                                           verification that agencies are performing the required
A significant finding, now being corrected, involved       annual reviews of their holdings, maintaining inven-
poor communication between regional disposal and           tory records, and reviewing real property donated un-
finance offices nationwide. This breakdown removed         der the public benefit conveyance process. Moreover,
assurances that the Government was collecting the full     GSA, as a regional holding· agency with approxi-
proceeds from property sales. Recommended pro-             mately $122 million of real property, is not conducting
cedures calling for direct remittance to regional fi-      annual reviews of its own holdings and does not pos-
nance offices should ensure establishment of               sess reconcilable real property inventory records.
appropriate accounts receivable and timely collection
actions.                                                   On October 31,1983, we recommended that the As-
                                                           sistant Regional Administrator for Public Buildings
                                                           and Real Property expand the scope of real property
B. Significant Problems, Abuses,                           surveys to cover all executive holding agencies and to
                                                           include verification that annual reviews are being con-
   Deficiencies, and                                       ducted. We further recommended that GSA establish a
   Recommendations                                         formal real property survey program for its holdings
                                                           and develop accurate inventory records that can be
Controls Over Real Property Sales                          reconciled annually to accounting records.
                                                           We are awaiting management's action plan for these
Receipts                                                   and other recommendations.
In our last Report to the Congress, we advised that the
Government lost $75,000 in interest because checks
from real property sales, valued at $1.5 million, were
improperly left in a safe for more than 5 months. This     c.   Statistical Highlights
finding prompted the GIG to review the controls gov-       The following table compares OIG activity and accom-
erning the processing of real property sales receipts at   plishments within FPRS to the overall totals for the
all disposal offices nationwide.                           period.




                                                                                                                       13
           Activity                                                                       FPRS             All GSA
           Audit Reports Issued ........................................... .                      6             420
           Recommended Cost Avoidance ................................. .                               $112,442,170
           Recommended Cost Recovery .................................. .                    $7,701       $3,607,466
           Management Commitments to Avoid Costs ....................... .               $3,071,216     $53,306,805
           Management Commitments to Recover Funds .................... .                      $819      $15,492,336
           Percentage of Recommended Cost Avoidance
           Agreed to by Management ...................................... .                      70                83
           Percentage of Recommended Cost Recovery
           Agreed to by Management ...................................... .                      79               73
           Unresolved Audits Older Than 6 Months .......................... .                                     38
           New Investigative Cases ....................................... .                       2             384
           Criminal Referrals (Subject) ..................................... .                    7             171
           Civil Referrals (Subject) ........................................ .                    2              19
           Administrative Referrals (Subject) ............................... .                    4             350
           Suspension/Debarment Referrals (Subject) ....................... .                                     42
           Indictments/Informations/Complaints ............................ .                                     28
           Convictions .................................................. .                                       22
           Civil Settlements/Judgments .................................... .                                     18



     D. Significant Audits From Prior                           The remaining five recommendations were originally
                                                                due for completion by September 30, 1983. FPRS re-
        Reports                                                 quested and received an extension to December 30,
                                                                1983. Management is well overdue on these items. No
     According to GSA's audit resolution system, the Office
                                                                request for an extension had been received by the GIG
     of Audit Resolution, Office of Policy and Management
                                                                as of March 31, 1984. The Office of Audit Resolution is
     Systems, is responsible for ensuring implementation
                                                                following up on this matter.
     ofresolved audit recommendations. Therefore, this of-
     fice furnished the status information on implementa-
     tion presented herein.                                     2. Significant Audits Being
     Two significant audits from prior Reports to the Con-          Implemented According to
     gress require implementing action by FPRS. Milestone           Established Milestones
     dates have been missed on one audit; the other is pro-
     ceeding according to schedule.                             Contracting for Commercial Appraisal
                                                                Services
                                                                Period First Reported: April 1, 1982 to
     1. Significant Audits Not Being                            September 30, 1982
         Implemented According to                               This audit of commercial appraisal service contract
         Established Milestones                                 awards found that GSA policies did not provide for
                                                                adequate competition. The report contained three rec-
     Stockpile Inventory Discrepancies                          ommendations; two are implemented.
     Period First Reported: April 1, 1983 to                    The third recommendation, involving revisions to ap-
     September 30, 1983                                         praisal handbooks by both PBS and FPRS, remains un-
                                                                implemented. FPRS revisions were originally due
     This audit identified large discrepancies between offi-    December 31, 1982. Successive extensions to March 31,
     cial stockpile inventory records and the subsidiary rec-   1983, July 31, 1983, and September 30, 1984 were
     ords maintained by storage depots. The report              granted. All action should now be completed by Sep-
     contained 21 recommendations; 16 are implemented.          tember 30,1984.




14
SECTION VI -- OTHER GSA COVERAGE
Other GSA services and staff offices, such as the Na-       Notably, our efforts relative to monitoring manage-
tional Archives and Records Service and the Office of       ment's implementation of the Federal Managers' Fi-
the Comptroller, comprised the focus for the re-            nancial Integrity Act prompted the OIG to recommend
mainder of the OIG's efforts this period. These other       that the Administrator qualify his December 31, 1983
offices provide specialized services to client groups       certification on GSA's systems of internal control. We
and support the administrative functions of the GSA.        questioned management's position that material
The OIG devoted 20,206 direct staffhours pursuing           weaknesses relative to GSA's ADP systems develop-
298 audit and investigative assignments. This level of      ment and acquisition activities had been corrected and
effort comprised 12 percent of total direct staffhours      questioned the adequacy ofthe initial first year effort to
and 10 percent of all work assignments.                     support an unqualified certification.
                                                            Our concerns, transmitted by a letter to the Admin-
                                                            istrator dated December 30, 1983, will be further devel-
                                                            oped in an audit report to be issued during the next
A. Analysis of OIG Findings                                 reporting period. The Administrator's ultimate cer-
                                                            tification, in our opinion, leaves open to interpretation
The OIG's coverage of other GSA programs and opera-         whether the internal control systems provide reason-
tions focused upon issues cutting across organiza-          able assurance.
tionallines, such as success in implementing Reform
88 initiatives and the Paperwork Reduction Act, and
audits and investigations of specific program-related       B. statistical Highlights
activities. Much of this work is still in process and we    The following table compares GIG activity and accom-
expect to present our findings in future Reports to the     plishments in other GSA areas to the overall totals for
Congress.                                                   the period.

     Activity                                                                      Other GSA            All GSA

     Audit Reports Issued ........................................... .                    17                420
     Recommended Cost Avoidance ................................. .                $7,000,000       $112,442,170
     Recommended Cost Recovery .................................. .                                   $3,607,466
     Management Commitments to Avoid Costs ....................... .                 $256,517       $53,306,805
     Management Commitments to Recover Funds .................... .                $2,000,000        $15,492,336
     Percentage of Recommended Cost Avoidance
     Agreed to by Management ...................................... .                       100                83
     Percentage of Recommended Cost Recovery
     Agreed to by Management ...................................... .                       100                73
     Unresolved Audits Older Than 6 Months .......................... .                                        38
     New Investigative Cases ....................................... .                       48               384
     Criminal Referrals (Subject) ..................................... .                    18               171
     Civil Referrals (Subject) ........................................ .                     2                19
     Administrative Referrals (Subject) ............................... .                    35               350
     SuspensionlDebarment Referrals (Subject) ....................... .                                        42
     Indictments/Informations/Complaints ............................ .                        3               28
     Convictions ......... .. . .................................... .                                         22
     Civil Settlements/Judgments .................................... .                        2               18

C. Significant Audits From Prior                            Prompt Action Needed to Preserve
                                                            America's Recorded Heritage
   Reports
                                                            Period First Reported: October 1, 1981 to
According to GSA's audit resolution system, the Office      March 31, 1982
of Audit Resolution, Office of Policy and Management        This audit found inadequate preservation and protec-
Systems, is responsible for ensuring implementation         tion of intrinsically valuable historical documents.
ofresolved audit recommendations. Therefore, this of-       The report contained eight recommendations; four are
fice furnished the status information on implementa-        implemented.
tion presented herein.
                                                            The remaining recommendations. involving the con-
The one unimplemented significant audit from a prior        duct of environmental testing and the development of
Report to the Congress falls within the responsibility of   standards, were scheduled for completion by August
the National Archives and Records Service. It is            1983. These dates were renegotiated to October 1983.
not being implemented according to established              The OIG is now considering a late request for another
milestones.                                                 extension.                                                   15
     SECTION VII -- STATISTICAL SUMMARY OF
     OIG ACCOMPLISHM       S
     The previous sections of this report analyzed OIG ac-         Based on audit reports issued in this and prior periods,
     tivity and accomplishments by GSA service and staff           management committed itself to use $53,306,805
     office. In the pages that follow; overall OIG accom-          more efficiently and to recover $16,117,336. This latter
     plishments are comprehensively reported. To facilitate        figure includes $9,843,500 resulting from civil settle-
     cross-referencing, the GSA organizational orientation         ments that involved collaboration with the Offices of
     ~s maintained in these summary statistics. However,           Investigations and Counsel to the IG.
     there is not a one-to-one correspondence between the
     data reported by GSA organization and the overall sta-        The OIG opened 384 investigative cases and closed
     tistics, since a portion of our work involved non-GSA         446. We referred 113 cases (171 subjects) for prosecutive
     operations.                                                   consideration, 17 cases (19 subjects) for litigation deci-
                                                                   sion, and 21 cases for further investigation by other
                                                                   Federal or State agencies. Based on these and prior re-
     A. OIG ACComplishments                                        ferrals, 31 cases (51 subjects) were accepted for crimi-
                                                                   nal prosecution and 10 cases (15 subjects) were
     During the reporting period, the OIG issued 423 re-           accepted for civil litigation.
     ports, including 8 audits performed by other agencies.
     These reports recommended savings of $116,215,865,            Criminal cases originating from OIG referrals resulted
     including $112,608,399 in recommendations for more            in 28 indictments/informations/complaints and 22
     efficient use of resources (cost avoidance) and               convictions. Civilly, judgments were entered in 6 cases
     $3,607,466 in recovery recommendations.                       (6 subjects) and settlements were reached in 9 cases (12




                                               Table 1. Summary of OIG Audits
                                                               Percentage       Recommended             Recommended
          GSA                                     Reports       of Total            Cost                    Cost
          Program                                 Issued         Audits           Avoidance               Recovery
          PBS
          -Internal ................                 103                         $ 29,139,808              $ 330,722
                           ~            .
          -Contract .. . . . . . . . . . . .         118                           20,788,995                234,435
                                                     221           52            $ 49,928,803              $ 565,157
          FSS
          -Internal ................                  27                         $    1,394,910            $    2,620
          -Contract ...............                  114                              9,710,112             2,679,401
                                                   ---
                                                     141           33            $ 11,105,022              $2,682,021
          OIRM
          -Internal ................                      5                      $ 37,878,000              $ 178,000
          -Contract ...............                      30                         6,530,345                  174,587
                                                         35         8            $ 44,408,345              $ 352,587
          FPRS
          -Internal ................                      3                      $                         $
          -Contract ...............                       3                                                      7,701
                                                   ---
                                                          6         2            $                         $     7,701
          Other
          -Internal ................                     17                      $   7,000,000             $
          -Contract ...............                       3*        5                  166,229
                                                         20                      $   7,166,229             $
          TOTAL      .................               423          100            $112,608,399              $3,607,466

          TOTAL COSTS
          RECOMMENDED               $116,215,865
          • These audits involved non-GSA nrn,,.,,nn,,
16
subjects). These actions resulted in determinations                          of these funds as civil recovery amounts inaccurately
that $16,241,977 is owed the Government. This figure                         distorts the amount of management commitments
 includes $9,843,500, also reported as management                            achieved on costs recommended by audit for recovery.
 commitments to recover funds, that resulted from col-                       Conversely, capturing these data as management com-
 laborative effort.                                                          mitments to recover funds distorts the civil recovery
We referred 298 cases to GSA management for admin-                           data and diminishes the contributions of our legal and
istrative action. This total includes 14 case referrals (42                  investigative staffs.
subjects) for suspension!debarment and 284 case refer-                       Therefore, these amounts are reported in both catego-
rals (350 subjects) for other administrative actions.                        ries (with explanatory footnotes) to present a balanced
Based on these and prior referrals, management de-                           picture of OIG accomplishments.
barred 19 contractors, suspended 13 contractors, repri-
manded 25 employees, suspended 20 employees,
terminated 23 employees, and demoted 1 employee.                             1. Audit Reports Issued
The following subsection presents detailed informa-                          Table 1 summarizes OIG audit reports issued this
tion on these and other quantifiable accomplishments.                        period by GSA program area. The table includes eight
                                                                             contract audits, recommending savings of $241,430,
                                                                             performed for the GSA OIG by the Defense Contract
B. Summary Statistics                                                        Audit Agency.
This period, the OIG completed the automation of its
manual reporting systems. This conversion necessi-
tated several systems edits that, due to their timing,                       2. Audit Resolution
resulted in adjustments to the workload pending at the                       Table 2 summarizes the universe of audit reports to be
beginning of the period. Therefore, in some instances,                       resolved this period. As the data indicate, we experi-
these figures do not correspond with the data pre-                           enced a significant increase in the number of unre-
sented in our last report.                                                   solved audit reports that are more than 6 months old
Further, the growing level of coordination between our                       (38 versus 5 reported at the close of the last period).
audit and investigation staffs has necessitated a depar-                     Thirty-four are contract audit reports.
ture from our previous reporting techniques. With in-                        For purposes of reporting audit resolution statistics,
creasing frequency, OIG investigators and attorneys                          contract audit reports were fully captured for the first
are developing prosecutable cases from our postaward                         time in our last Report to the Congress when these re-
contract audits, especially those dealing with price re-                     ports became subject to GSA's audit resolution system.
duction and defective pricing issues. Ultimately, many                       Therefore, this is the first period where a carryover
of these cases result in civil settlements.                                  from a prior period could occur. This rationale par-
Assigning these recoveries to a single functional re-                        tially explains the increase. We are, however, analyz-
porting category obviously poses a problem. Inclusion                        ing the reasons for these delayed resolution decisions.




                                              Table 2. Resolution of OIG Audits

                                                                                                       Reports
                                                                                     No. of           Questioning              Costs
                                                                                    Reports             Costs                Questioned

      Reports To Be Resolved as of 10/1/83
      -Less than 6 months old " * • • • • • • • • • • • • • • • • • • • • • • •       195                   151            $ 65,324,096
      -More than 6 months old ..........................                                5
      Reports Issued This Period          ...... . . . . . .......
                                               ~   ~       ~                          423                   217            $116,215,865
     TOTAL TO BE RESOLVED* .......................                                    620                   366            $181,373,732
     Reports Resolved ... . . . . . . . . . . . ...............
                                    ~     ~




     -Issued prior periods .............................                              162                   115            $ 56,563,488
     -Issued current period ............................                              243                    80              13,352,737
     TOTAL RESOLVED ..............................                                    405                   195            $ 69,916,225
     Unresolved as of 3/31/84 .........................
     -Less than 6 months old ..........................                               177                   135            $102,696,899
     -More than 6 months old ..........................                                38                    36               8,760,608
     TOTAL UNRESOLVED ...........................                                     215                   171            $111,457,507

      • Totals do not reflect three audit reports issued this period that are not subject to GSA's audit resolution system. Two of these
        reports questioned costs of $166,229.
                                                                                                                                           17
     Table 3 provides detailed information on the 105 audits        In accordance with GSA Order ADM 2030.2A, resolu-
     involving questioned costs of $69,916,225 identified           tion decisions on costs questioned through contract
     in Table 2 as being resolved this period. Notably,             audits are sustained costs. Management commitments
                                                                    occur at the time of contract settlement. For internal
     $59,940,572 or 86 percent was sustained in the audit           audits, sustained costs and management commit-
     resolution process.                                            ments are synonymous.




                                  Table 3. Resolution Decisions on OIG Audits

                                          Recommended           Sustained           Recommended            Sustained
          GSA                                 Cost                Cost                  Cost                 Cost
          Program                           Avoidance           Avoidance             Recovery             Recovery

          PBS
          -Internal ................        $21,691,946         $21,691,946           $ 808,860            $ 808,860
          -Contract ...............          17,312,040          15,495,105              20,372
                                            $39,003,986         $37,187,051           $ 829,232            $ 808,860
          FSS
          -Internal ................        $   234,805         $   234,805            $                   $
          -Contract ...............          11,351,854           4,530,870             2,402,204           2,255,413
                                            $11,586,659         $ 4,765,675            $2,402,204          $2,255,413
          OIRM
          -Internal ................        $  980,000          $   980,000            $                   $
          -Contract ... '., ..........       8,311,689            8,553,344              154,099                55,018
                                           $ 9,291,689          $ 9,533,344            $ 154,099           $    55,018
          FPRS
          -Internal ................       $                    $                     $                    $
          -Contract ...............           4,384,138           3,071,216                  7,701               7,478
                                            $ 4,384,138         $ 3,071,216            $     7,701         $     7,478
          Other
          -Internal ................       $    256,517         $     256,517         $2,000,000           $2,000,000
          -Contract ...............
                                           $    256,517         $     256,517         $2,000,000           $2,000,000


          TOTAL     .................      $64,522,989          $54,813,803           $5,393,236           $5 c126,769
          TOTAL COSTS
          SUSTAINED $59,940,572




     Table 4 summarizes contract audit settlements by GSA           reported as the costs sustained to facilitate reporting
     program area through a comparison of costs sustained           during this transition period. Similarly, for current
     in the audit resolution process and management com-            period audits for which the OIG received no pre-
     mitments achieved in negotiations with contractors. A          negotiation statement, the same practice was em-
     distinction is drawn between audits issued in the cur-         ployed.
     rent period and prior periods.
     The data, especially on cost avoidance, appear to indi-        In addition to the amounts shown in Table 4, the GSA
     cate a 100 percent correspondence between costs sus-           OIG achieved a management commitment to recover
     tained in the audit resolution process and manage-             $625,000 on an audit it performed for another agency.
     ment commitments occurring at contract settlement.
     This is not necessarily the case. Many of the audits           Drawing upon the information presented in Tables 3
     reflected in the data precede requirements for audit           and 4 and including the $625,000 settlement detailed
     resolution, since they were issued prior to implemen-          above, GSA OIG internal and contract audits resulted
     tation of GSA's audit resolution policy. In these cases,       in total management commitments to avoid
L8   the same costs committed to by management are being            $53,306,805 and to recover $16,117,336.
                             Table 4. Summary of Contract Audit Settlements
                                                                 Avoidance                            Recovery
     GSA                                  No. of           Costs       Management               Costs      Management
     Program                             Reports          Sustained    Commitment              Sustained   Commitment
     PBS
     -Prior ..................               73          $ 8,066,426          $ 8,066,426     $      75,554     $     75,554
     -Current ................               26            3,469,338            3,469,338
                                            --
       Subtotal     ..............           99          $11,535,764          $11,535,764     $      75,554     $     75,554

     FSS
     -Prior ..................                45         $ 5,049,346          $ 5,049,346     $     833,765     $     766,266
     -Current ................                23           1,897,124            1,897,124         2,741,743         2,692,476
       Subtotal     .......... , ...          68         $ 6,946,470          $ 6,946,470     $ 3,575,508       $ 3,458,742

     OIRM
     -Prior ..................               20          $ 6,546,513          $ 6,546,513     $ 8,340,120       $ 8,340,120
     -Current ................               10            2,043,574            2,043,574         808,241           808,241
                                            --
       Subtotal     ..............           30          $ 8,590,087          $ 8,590,087     $ 9,148,361       $ 9,148,361

     FPRS
     -Prior ..................               4           $ 3,071,216          $ 3,071,216     $                 $
     -Current ................               1                                                           819               819
                                            --
       Subtotal ..............               5           $ 3,071,216          $ 3,071,216     $          819    $          819

     TOTAL     .................            202          $30,143,537          $30,143,537     $12,800,242       $12,683,4 76*

     TOTAL
     MANAGEMENT
     COMMITMENT $42,827,013
     * Includes $9,843,500 also reported under monetary results of civil actions.




3. Audit Followup                                                        4. Investigative Workload
GSA Order ADM 2030.2A places primary respon-                             The investigative workload remained relatively con-
sibility for followup on the implementation of resolved                  stant over the last reporting period. The OIG opened
audit recommendations with the Audit Followup Offi-                      384 cases and closed 446 cases; only 29 of these cases
cial. The Office of Audit Resolution, Office of Policy                   were administratively closed without referral.
and Management Systems, acts as staff to the Audit                       Detailed information on investigative workload by
Followup Official in this function.                                      case category is presented in Table 5. In addition to
The OIG performs its own independent reviews of im-                      these cases, the OIG received and evaluated 136 com-
plementation actions on a test basis. This period, the                   plaints/allegations from sources other than the Hotline
OIG performed three implementation reviews. Man-                         that involved GSA employees and programs. Based
agement had successfully implemented all of the rec-                     upon an analysis of these allegations, formal investiga-
ommendations included in these three reviews.                            tions were not warranted.




                                           Table 5. Investigative Workload
     Case                                                Cases Open                 Cases         Cases         Cases Open
     Category                                               10/1/83                 Opened        Closed            3/31/84
     White Collar Crimes ................                     292                    148           171               269
     Other Crimes in GSA-Controlled
     Space ...........................                         141                    94           107               128
     Contractor Suspension/Debarment                ..          29                    26            22                33
     Employee Misconduct ..............                         95                    72            96                71
     Other ............................                         55                    44            50                49
                                                                                     --                              --
     TOTAL ...........................                         612                   384           446               550
                                                                                                                                    19
     Table 6 distributes the 384 new investigative cases                      proximately $4.6 million.
     opened this period (Table 5) by case category and GSA                    The OIG made 21 case referrals to other Federal or State
     program area.                                                            agencies for further investigation or other appropriate
                                                                              action.
     5. Referrals
     The OIG makes three types of referrals to officials out-                 6. Administrative Referrals and
     side GSA: criminal, civil, and investigative. During the                     Actions Involving GSA
     period, we referred 113 criminal cases involving 171
     subjects to the Department of Justice or other au-                           Employees
     thorities for prosecutive consideration. The status of                   Frequently, OIG investigations disclose nonprosecuta-
     OIG criminal referrals is as follows:                                    ble wrongdoing on the part of GSA employees,
                                           Cases Subjects                     contractors, or private individuals doing business
                                                                              with the GSA. The OIG refers these cases to GSA offi-
        Pending Prosecutive Decision                                          cials for administrative action.
        as of 10/1/83 ................ 42               72                    During the period, we referred 284 cases involving 350
        Referrals ................... 113              171                    subjects for administrative action. In addition, we re-
        Declinations ................         63        88                    ferred 169 cases involving 197 subjects to GSA officials
        Accepted for Prosecution .....        31         51                   for informational purposes only.
        Pending Prosecutive Decision
        as of 3/31/84 ................        61       104                    The status of OIG administrative referrals is as follows:
     The OIG also referred 17 cases involving 19 subjects to                                                                  Cases Subjects
     either the Civil Division of the Department of Justice or                   Pending Decision
     a U.S. Attorney for litigation consideration. These re-                     as of 10/1/83 ................             74               96
     ferrals could potentially result in civil recoveries of                     Referrals ...... . . . . . . . . . . . .. 284              350
     $6.5 million. The status of our civil referrals is as fol-                  Actions Completed .......... 296                           379
     lows:                                                                       Pending Decision
                                                             Cases Subjects      as of 3/31/84 ................ 62                            67
        Pending Litigation Decision                                           Of the 284 cases referred for administrative action this
        as of 10/1/83 ................                         21     31      period, 187 cases (227 subjects) involved GSA em-
        Referrals ...................                          17     19      ployees. As a result of these and prior referrals, man-
        Declinations ................                           5      5      agement took the following actions against GSA
        Accepted for Litigation. . . . . . . .                 10     15      employees:
        Pending Litigation Decision                                             Reprimands ............................ 25
        as of 3/31/84 ................                         23     30        Suspensions. . . . . . . . . . . . . . . . . . . . . . . . . . .. 20
     For the 23 cases involving 30 subjects pending at the                      Terminations ............................ 23
     close of the period, total potential recoveries are ap-                    Demotions. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1




                                 TableS. Distribution of Cases Opened This Period
           Case
           Category                                                  PBS         FSS               OIRM               FPRS               Other
           White Collar Crimes       •   ~   ~   4   ~   ••••••••     62          65                   9                                    11
           Other Crimes in GSA-Controlled
           Space .........................                            32          48                   4                  1                  9
           Contractor Suspension/Debarment.                           12          14
           Employee Misconduct .. .......            ~   ~            15          40                   5                                    12
           Other . . . . ... . . . . . . .. . ........
                             ~                                        15          13                                                        16
                                                                     --          --
           TOTAL      ........................                       136         180                 18                   2                 48


     7. Contractor Suspensions                                                 imposed 13 suspensions and 19 debarments. One sus-
                                                                               pension and one debarment were disapproved.
         and Debarments                                                        The status of our suspension/debarment referrals is as
                                                                               follows:
     The OIG continued its efforts to make the suspension
     and debarment process a more effective and more read-                        SuspenSions                              Cases Subjects
     ily used administrative procedure. This period, the                          Pending as of 10/1/83 ........                    13
     OIG referred 4 cases involving 15 subjects for suspen-                       Referrals ........ . . . . . . . . . . .   4      15
     sion and 10 cases involving 27 subjects for debarment.                       Action Completed ... .......               3      14
20   As a result of these and prior referrals, management                         Pending as of 3/31/84 .. ......            4      14
                                             Cases Subjects                  8. Summary of Referrals by GSA
   Debarments                                                                     Program Area
   Pending as of 10/1/83 ....... .                8          25
   Referrals .................. .                10          27              Table 7 summarizes OIG subject referrals this period by
   Action Completed .......... .                  6          20              GSA program area.
   Pending as of 3/31/84 ....... .               12          32


                                   Table 7. Summary of OIG Subject Referrals
     GSA                                                                                                  Adminis-       Suspensionl
     Program                                                 Criminal                 Civil                tratlve       Debarment
     PBS.............................                              45                   1                   203               21
     FSS .............................                             94                  13                    82               20
     OIRM ............................                              7                   1                    26
     FPRS............................                               7                   2                     4                    1
     Other............................                             18                   2                    35
     TOTAL........................ ...                            171                  19                   350               42


9. Criminal and Civil Actions                                                 while judgments were entered in 6 cases involving 6
Cases accepted for criminal prosecution during this                           subjects. There were 4 unsuccessful actions against 8
and prior periods resulted in 28 indictments/informa-                         subjects.
tions/complaints and 22 convictions. Civilly, settle-                         Table 8 summarizes individual criminal and civil ac-
ments were reached in 9 cases involving 12 subjects,                          tions by GSA program area.


                                  Table 8. Summary of Criminal and Civil Actions
                                                               Indictments/
      GSA                                                     Informationsl                 Convictions              Settlements!
      Program                                                   Complaints                  Pleas/Trials             Judgments
      PBS ............................ .                                10                          5                        4
      FSS ............................ .                                14                         15                       10
      OIRM ........................... .                                                                                     1
      FPRS ........................... .                                 1                          1                        1
      Other ........................... .                                3                          1                        2
      TOTAL .......................... .                                28                         22                       18


10. Monetary Results
Table 9 presents the amounts determined to be owed                           In addition, the OIG identified for recovery $309,216 in
the Government as a result of criminal and civil ac-                         Government money and/or property during the course
tions. The amounts do not necessarily reflect actual                         of its investigations.
monetary recoveries.



                                       Table 9. Cri minal and Civil Recoveries
                                                                  Criminal                        Civil                    Total
      Fines and Penalties ................                        $294,637                  $                        $      294,637
      Settlements and Judgments .........                                                       15,941,407               15,941,407
      Restitutions ... . . . . . . . . . . . . . . . . . .
                              ~                                         5,933                                                 5,933
      TOTAL ...........................                           $300,570                  $15,941,407*             $16,241,977*
      * Includes $9,843,500 also reported as management commitments to seek recoveries.




11. DIG Subpoenas                                                            tions when other reasonable measures fail. During the
The OIG views the use of subpoenas to be an effective                        period, seven instances met this criterion and sub-
tool for obtaining information for audits and investiga-                     poenas were issued.                                        21
     SECTION VIII -- REVIEW OF LEGISL                                                            ION AND
     REGULATIONS
     The GIG is mindful of the importance of its legislated       -Opposed S. 1746, a bill requiring that the Govern-
     responsibility to review existing and proposed legisla-        ment procure certain goods and services from the
     tion and regulations. Such reviews constitute an im-           private sector. Agreed with the Department of De-
     portant vehicle for making recommendations that will           fense that such legislation limits flexibility and is
     increase economy and efficiency in Government oper-            unnecessary in light of the constraints imposed by
     ations. as well as prevent fraud and abuse.                    OMB Circular A-76.
                                                                  - Strongly opposed H.R. 424, a bill to amend the Pri-
     A. Legislation/Regulations                                     vacy Act of 1974 and the Communications Act of
        Reviewed                                                    1934 to protect telephone records. Agreed with the
                                                                    Department of Justice and the Central Intelligence
     During the period, the GIG legal staff reviewed 208 leg-       Agency that the safeguards contemplated by H.R.
     islative matters and 44 regulatory initiatives relating to     424 would seriously hamper legitimate law enforce-
     the economy and efficiency of Government operations            ment objectives without providing any real counter-
     and the prevention of fraud and abuse. In 'addition,           vailing enhancement to personal privacy interests.
     numerous GSA issuances were reviewed and com-
     mented on by this and other elements of the OIG.             - Supported S. 2119, a bill to provide cash incentive
                                                                    awards to non-civil-service citizens whose dis-
     B. Significant Comments                                        closures of fraud, waste, or mismanagement in Gov-
                                                                    ernment result in substantial cost savings.
     The paragraphs below summarize the GIG's position·
     on some of the more significant legislative and reg-         - Opposed H.R. 4826, a bill to forbid the nonconsen-
     ulatory matters reviewed.                                      sual recording of telephone conversations by public
     - Supported S. 1733, a bill to create a separate Federal       employees. Regarded the criminalizing of such con-
        crime for computer fraud and abuse. Recommended             duct as ill-advised and recommended that such re-
       that Congress revise certain sections ofthe statute to       cordings be controlled by regulation.
        clarify the purpose of the bill.                          - Strongly supported S. 1706, a bill to require unifor-
     - Opposed the provision of H.R. 3846, a bill to amend          mity in identification documents. Advised that
        the Davis-Bacon Act and related statutes, that in-          adoption of a system of national identification cards
        creases from $2,000 to $1,000,000 the threshold             or some functionally equivalent system would
        amount at which the Davis-Bacon Act applies.                greatly benefit law enforcement authorities.




22
SECTION IX -- OTHER OIG ACTIVITIES
In addition to detecting problems in GSA operations,        while the latter involved potentially significant man-
the OIG is responsible for initiating actions to prevent    agement problems.
fraud, waste, and abuse, and to promote economy and         The second operational survey, conducted between
efficiency. This section details the OIG programs re-       January and February 1984, assessed buildings man-
sponding to these legislated responsibilities and pre-      agement operations in the Dallas, Texas, area. This sur-
sents our initiatives to maximize the effectiveness and     vey, like the Chicago survey, identified serious
efficiency of OIG operations.                               deficiencies requiring corrective action by GSA man-
                                                            agement. We are awaiting management's response to
A. Fraud Prevention                                         these recommendations.
The OIG fraud prevention program is comprised of            The team also surfaced ten findings warranting further
four elements that simultaneously focus on minimiz-         OIG audit and investigative work. These referrals in-
ing opportunities for fraud and promoting awareness         volved such diverse areas as term contractors, person-
among GSA employees. This four-pronged approach             nel practices, and imprest funds.
consists of:                                                Force L comprised a multidisciplinary review of lease
                                                            enforcement and administration practices at a major
   • Defining vulnerable areas and assessing the de-        GSA regional office. Examination of 194 lease con-
      gree of vulnerability;                                tracts, supplemented by on-site inspection of 42 build-
   4& Anticipating potential problem areas and per-         ings, identified numerous instances of poor lease
      forming reviews that provide front-end assur-         enforcement practices resulting'in inadequate service
      ances that the program is operating within            to customer agencies and overpayments to contractors.
      applicable laws, policies, and procedures;            The survey culminated in five investigative, three au-
   • Educating GSA employees to the manifestations          dit, and four management referrals. In addition, two
      of fraud and the mechanisms for reporting suspi-      draft audits, recommending major policy changes,
      cions or allegations to the OIG; and                  identified potential cost avoidances and recoveries of
   • Communicating the need for fraud awareness             $4.5 million. The survey report is under review by
      and establishing mechanisms that promote a di-        GSA's highest management officials.
      alogue between GSA employees and the OIG.             Finally, the OIG, recognizing that computer resources
                                                            are limited and expensive, routinely evaluates GSA's
                                                            computer resource utilization and assesses the vul-
1. Definition                                               nerability of its systems to unauthorized use. We devel-
                                                            oped special ADP audit techniques that help us
This period, OIG definition initiatives included the
                                                            identify instances of unauthorized usage as part of
conduct of two operational surveys, a special multi-
                                                            these reviews.
disciplinary review of the leasing area entitled Force L,
and several computer resource utilization evaluations.      This period, reviews of Infonet System E, a system that
While each shared the common objective of assessing         supports the National Electronic Accounting and Re-
vulnerability, these initiatives comprised distinct un-     porting System, and the Remote Access Multi-User
dertakings employing divergent techniques and ap-           System identified several instances of inappropriate
proaches.                                                   use by Government employees. The OIG advised man-
                                                            agement of these instances and, relative to the Infonet
Operational surveys are limited scope reviews con-          System E, the Comptroller agreed to periodically insert
ducted by teams of auditors, investigators, and inspec-
                                                            a brief message at sign-on advising system users that
tors. They are designed to follow up on activities that
                                                            use is restricted to official Government business. The
exhibited past vulnerability to fraud and assess the        message further advises that usage is monitored by the
current degree of vulnerability. They provide the OIG
                                                            system resource manager and the OIG.
immediate insight into a program's vulnerability and
develop referrals for in-depth review via conventional      The OIG is currently evaluating computer resource
audits and investigations.                                  utilization in the Atlanta, Georgia, regional area.
The fITst operational survey, conducted between Oc-
tober and November 1983, evaluated overall depot op-        2. Anticipation
erations, including the adequacy of physical security       OIG anticipation initiatives this period included a re-
and fire safety measures, at the Chicago Supply Dis-        view of GSA Customer Supply Centers and continued
tribution Facility. The survey disclosed numerous and       coverage of the leasing program. Both initiatives stem
serious deficiencies regarding operations, physical se-     from the belief that many of tomorrow's problems can
curity, and fire safety that were referred to GSA man-      be avoided through decisive action today.
agement. Management generally concurred in our              The OIG's emphasis on Customer Supply Centers fol-
findings and provided an action plan to correct the de-     lows from past instances of fraud in the customer sup-
ficiencies.                                                 ply area, especially self-service stores. As a relatively
The survey also resulted in seven investigative and         new innovation in the small order supply distribution
four audit referrals. The former involved improper acts     network, these centers, which deal in fast moving of-
committed by employees, contractors, and carriers,          fice supplies, could be a target for future abuse. To min-   23
     llmze program vulnerability, we initiated a multi-                 In March 1984, our field audit and investigations of-
     regional evaluation of the application system support-             fices received copies of "The IG Story" briefing mate-
     ing these centers. A major review objective is evaluat-            rials so that these presentations can be given to new
     ing the potential for utilizing these microcomputers               regional officials.
     for fraudulent purposes.
     The reviews, still in process, should surface any sys-
     tem vulnerabilities .. In this way, corrective action can          4. Communication
     be implemented before any weaknesses are exploited.                A free flow of information between GSA employees
     In a similar way, the ~IG's program for reviewing pro-             and the OIG is a vital fraud prevention and detection
     posed leases prior to award limits opportunities for               element. To sustain the dialogue created through pre-
     fraud and abuse. These front-end reviews verify that               vious OIG communication initiatives, this period the
     GSA adhered to applicable procedural and regulatory                OIG posted Hotline PQl>ters in all GSA buildings na-
     requirements before awarding leases involving annual               tionwide and distributed a brochure summarizing the
     rentals in excess of $200,000. The preaward reviews                last Report to the Congress. We also took steps to have
     are, however, purely advisory in nature and do not                 all OIG Hotline numbers included in the 31 Govern-
     constitute OIG concurrence in or approval to make an               ment telephone directories published by GSA. The
     award.                                                             poster serves to reinforce the message conveyed by an
     The program achieved the following results during the              earlier Hotline brochure and expand the audience re-
     period:                                                            ceiving this message. The brochure emphasized the
         Lease proposals submitted for review ....... 66                positive role played by the GSA OIG and underscored
         Lease proposals reviewed .................. 46                 our results-oriented nature. This focus assures GSA
         Reviews with no deficiencies . . . . . . . . . . . . . .. 28   employees that their complaints/allegations are acted
         Reviews with minor deficiencies. . . . . . . . . . .. 15       upon.
         Reviews with major deficiencies . . . . . . . . . . . .. 3     During the period, we received 355 Hotline calls and
                                                                        letters. Of these, 150 complaints warranted further ac-
                                                                        tion. We also received 21 referrals from the General Ac-
     Some of the major deficiencies surfaced by the OIG
                                                                        counting Office and 25 referrals from other agencies
     included: failure to have the prospectus for a proposed
                                                                        that required further action. These allegations were re-
     lease approved by Congress; failure to obtain a re-
     quired legal opinion; and insufficient documentation               ferred as follows:
     to justify acceptance of certain operating costs or nego-             AuditsiInvestigations .................... 110
     tiation of a rental rate higher than the estimated Fair               GSA Program Officials ................... 70
     Annual Rental.                                                        Other Agencies .................. '" ... " 16
                                                                        The remaining 205 complaints received over the OIG
                                                                        Hotline required no further action and were closed.
     3. Education
     Integrity Awareness Briefings comprise the OIG's pri-
     mary education vehicle. Individual briefings explain
     the statutory mission of the OIG and the functions of              B. OIG Management Initiatives
     component offices. In addition, through case studies               OIG management initiatives seek to promote economy
     and slides, the briefings expose GSA employees to ac-              and efficiency in OIG operations and to enhance coor-
     tual instances of white collar crime in GSA and other              dination between the audit and investigation func-
     Federal agencies. They conclude with a presentation                tions. Major initiatives are discussed in the paragraphs
     on how to recognize the manifestations of wrongdo-                 that follow.
     ing, especially bribery; how to respond to them; and
     the employee's potential role in an ensuing investiga-
     tion.                                                              1. OIG Issues Group
     Since the inception of this program in 1981, almost
     3,550 GSA employees have attended Integrity Aware-                 This period, the OIG strengthened the role of its field
     ness Briefings. This total includes the 730 employees              components in the decision-making process by estab-
     in eight GSA regions briefed this period.                          lishing the OIG Issues Group. The group, comprised of
     The Integrity Awareness program is complemented by                 four field directors elected by their peers and six top-
     a separate education vehicle directed at GSA manage-               ranking headquarters officials, is charged with identi-
     ment officials. The Inspector General personally briefs            fying and suggesting ways of resolving issues of con-
     newly appointed top-level officials at headquarters on             cern to the OIG staff nationwide.
     our missions, functions, and responsibilities using a              The Issues Group held the first of its 1-day, quarterly
     presentation entitled "The IG Story." Through slides               meetings on February 13, 1984. At this meeting, the
     and narrative, these officials learn the impetus behind            group specified 27 separate points of resolution for the
     the creation of statutory IGs, the responsibilities and            12 items contained on its agenda. As a result of these
     authorities vested in the IG, and the organizational               points of resolution, action is underway by OIG com-
     structure used to execute these responsibilities. More             ponents to address needs in a wide variety of areas,
     importantly, "The IG Story" emphasizes the com-                    including word processing equipment and microcom-
     monality of purpose shared by management and the                   puters, travel fund advances, confidentiality of opera-
     OIG in the pursuit of greater Government economy                   tional travel plans, joint audit and investigative
24   and efficiency.                                                    training seminars, and OIG awards and promotions.
2. Field Office Appraisals                                   of preaward controls that will lead to more efficient
                                                             procurements and prevent improper disbursements,
The implementation of a systematic program for re-           and (2) develop warning systems that will alert con-
viewing the economy, efficiency, and effectiveness of        tracting activities to problems encountered with spe-
OIG components represented a major accomplishment            cific contractors. Its significance as a project lies in its
during the last reporting period. This period, in ac-        prevention focus, that is, preventing procurement-re-
cordance with our plan to review each of our field of-       lated problems before they occur.
fices on a cyclical basis, peer groups appraised the
operations of the Auburn, Washington, and San Fran-          In collecting background information this period, the
cisco, California, field audit and investigations offices.   project team discovered that a great deal of information
                                                             already exists in this area. The Federal Government
The appraisals serve to identify both the strengths and      has several models, State and local governments have
weaknesses of the offices reviewed. Through correct-         compendiums of best practices, and private sector or-
ing the weaknesses and sharing the strengths, the OIG        ganizations possess similar types of information.
organization benefits as a whole.
                                                             The project team intends to capitalize on this work.
In conjunction with this appraisal program, the Office
                                                             Efforts during the next reporting period will focus on
of Policy, Plans, and Management Systems also cri-
                                                             reviewing and digesting this material. A final report,
tiques recent audit reports. Such critiques, in addition
                                                             scheduled for issuance in July 1984, will highlight the
to ensuring adherence to GIG policies and audit report
                                                             best existing practices and provide direction for imple-
standards, promote a definitive level of quality in our
                                                             menting front-end operational controls.
reports. Future plans call for increased emphasis on
peer group participation in the audit report evaluation
program.                                                     3. Legislative and Regulatory
C. Projects Sponsored by the petE                                 Review Project
                                                             Under the aegis of the PCIE Prevention Committee, the
The GIG continued to participate in the interagency
                                                             GSA OIG is also the lead agency on the Legislative and
projects sponsored by the President's Council on Integ-
                                                             Regulatory Review project. The project involves com-
rity and Efficiency (PCIE). Specific involvement this
period is delineated below by project.                       piling a compendium of best practices for application
                                                             in the review of proposed legislation and regulations.
                                                             Project effort this period resulted in the development of
1. Procurement Debarment and                                 a comprehensive questionnaire designed to identify
    Suspension Project                                       how these review functions are coordinated in the
The project team completed its formal efforts to facili-     agencies of project team members. The responses were
tate implementation of Policy Letter 82-1, Office of         analyzed and are now being summarized in a pre-
Federal Procurement Policy, and FPR Temporary Reg-           liminary draft report to the Prevention Committee.
ulation 65 this period. These policies, issued on June       Other OIGs are now responding to a streamlined ver-
24, 1982 and September 30, 1982, respectively,               sion of the questionnaire. Concurrently, preliminary
provide for Government-wide debarment and suspen-            efforts to obtain input from selected State, local, and
sion of contractors and prescribe basic procedural re-       private sector organizations are underway.
quirements for debarment and suspension actions of           Upon completion of these steps, the compendium will
Federal agencies.                                            be compiled and, upon approval, disseminated to all
The project yielded significant results, including:          OIGs.
  • Development of implementing regulations/di-
    rectives within 18 Federal agencies;
                                                             4. Auditor n-aining Subcommittee
  • Conduct of a pilot computer match between the
    new Consolidated List of Suspensions and De-             Under the aegis of the PCIE Training Committee, the
    barments and the Federal Procurement Data Sys-           GSA GIG participated in the development of a training
    tem, a comprehensive listing of Government               course entitled "Allocating Audit Resources Through
    contract awards, resulting in 426 raw hits, 231          Operations Risk Analysis." The task force also in-
    probable matches, and 119 possible matches;              cluded auditors from the Department of Defense OIG,
    and                                                      the Department of Energy OIG, the Army Audit
  • Increased level of debarment and suspension ac-          Agency, and the General Accounting Office.
    tions at many Federal agencies.
                                                             The objective of this effort is to consolidate the most
                                                             beneficial aspects of current auditing approaches used
2. Front-End Operational Controls                            in the public and private sectors. The course will be
    in the Procurement Process                               used to teach auditors how to apply these principles in
                                                             developing comprehensive audit plans; planning in-
The GSA GIG is the lead agency on this PCIE Preven-          dividual audits; performing individual audits; and
tion Committee project designed to: (1) identify types       evaluating the audit process.



                                                                                                                            25
APPENDICES




             27
     APPENDIX I
     Audit Report Register
     Assignment                                                                     Date of
     Number       TItle                                                             Report
     PBS          Contract Audits
     A30597       REPORT ON AUDIT OF CLAIM UNDER 'THE CONTRACT DISPUTES ACT OF       10/03/83
                  1978, DAVID J. TIERNEY, JR., INC. AND MICHAELS MECHANICAL CON-
                  TRACTING INC.
     A30009       PREAWARD EVALUATION OF LEASE ESCALATION PROPOSAL, LANDOW           10/05/83
                  AND COMPANY, BUILDERS, LEASE NO. GS-03B-6114
     A30758       AUDIT OF FOOD SERVICE CONTRACT, SERVICE SYSTEMS CORPORATION,       10/05/83
                  CONTRACT NO. GS-06B-00029-01
     A30833       PREAWARD EVALUATION OF PRICING PROPOSAL, M & H BUILDING SERV-      10/05/83
                  ICES, INC.
     A30734       PREAWARD EVALUATION OF LEASE ESCALATION PROPOSAL, COFFEY           10/06/83
                  SMI'TH ASSOCIATES, LEASE NO. GS-03B-70005
     A30783       AUDIT REPORT ON EVALUATION OF 'THE LEASE ESCALATION PRO-           10/06/83
                  POSAL SUBMITTED UNDER LEASE NO. GS-10B-04553, TUDOR BUSINESS
                  CENTER, ANCHORAGE, ALASKA
     A30615       PREAWARD EVALUATION OF LEASE ALTERATION PRICING PROPOSAL,          10/11/83
                  WESTWOOD MANAGEMENT CORPORATION, LEASE NO. GS-llB-05657
     A30680       AUDIT OF LEASE ESCALATION PROPOSAL, EC. TUCKER COMPANY, INC.,      10/11/83
                  AGENT FOR INDIANA PROPERTIES INC., LEASE NO. GS-05B-12631
     A30799       PREAWARD EVALUATION OF SUPPLEMENTAL AlE PROPOSAL, SILLING          10/11/83
                  ASSOCIATES, INC.
     A30847       PREAWARD EVALUATION OF SUPPLEMENTAL AlE PROPOSAL, MOSELEY-         10/12/83
                  HENING ASSOCIATES, INC.
     A30824       PREAWARD EVALUATION OF PRICING PROPOSAL, MOTLEY'S SHAMPOO-         10/13/83
                  ING COMPANY, SUBCONTRACTOR UNDER U.S. SMALL BUSINESS AD-
                  MINISTRATION, SOLICITATION NO. 2PPB-ED-24, 183 (NEG)
     A30876       PREAWARD EVALUATION OF PRICING PROPOSAL, FAJARDO PRIVATE DE-       10/13/83
                  TECTIVE AND SECURITY GUARDS, INC., SUBCONTRACTOR UNDER U.S.
                  SMALL BUSINESS ADMINISTRATION, SOLICITATION NO. 2PPB-RC-24, 186
                  (NEG)
     A30617       LETTER REPORT - REVIEW OF LEASE ESCALATION PROPOSAL, NOR'TH-       10/14/83
                  WESTERN DEVELOPMENT COMPANY, LEASE NO. GS-03B-6521
     A30815       PREAWARD EVALUATION OF PRICING PROPOSAL, KROH BROTHERS DE-         10/14/83
                  VELOPMENT COMPANY. KANSAS CITY, MISSOURI
     A30159       AUDIT REPORT ON CLAIM FOR INCREASED COSTS; ROBERT J. DI-           10/18/83
                  DOMENICO; CONTRACT NO. GS-03B-80228
     A40020       AUDIT REPORT - PREAWARD EVALUATION OF XENERGY, INC., BUR-          10/18/83
                  LINGTON, MA, CONTRACT GS-OlB-92372
     A30745       PREAWARD EVALUATION OF SBA (8A) PRICING PROPOSAL, DAUTE CON-       10/20/83
                  TRACTORS, INC., CONTRACT NO. GS-llB-28231 "NEG"
     A30864       PREAWARD EVALUATION OF PRICING PROPOSAL, HOWARD SECURITY           10/25/83
                  SERVICES, INC., SOLICITATION NO. GS-03-83-R-0036
     A30863       PREAWARD EVALUATION OF SUPPLEMENTAL AlE PROPOSAL,                  10/26/83
                  WILLIAMS AND TAZEWELL & ASSOCIATES, INC.
     A30766       REVIEW OF CAFETERIA OPERATIONS, OLD GEM CATERING CO., INC., ST.    10/27/83
                  LOUIS, MISSOURI, CONTRACT NO. GS-06B-12213
     A40007       PREAWARD EVALUATION OF PRICING PROPOSAL, FIRST ATLANTA AS-         10/28/83
                  SOCIATES, ATLANTA, GA, LEASE ALTERATIONS IRS 1-85 ANNEX, LEASE
                  NO. GS-04B-15803
     A30702       REPORT ON AUDIT OF CLAIM - ARCHITECTS AND ENGINEERS, INC.,         10/31/83
28                CONTRACT NO. GS-03B-89053
A30728   PREAWARD EVALUATION OF A-E PRICING PROPOSAL, KEYES, CONDON        10/31/83
         AND FLORANCE, CONTRACT NO. GS-03B-89009
A30822   PREAWARD EVALUATION OF PRICING PROPOSAL, CONTRACT NO. GS-         10/31/83
         07B-31205, PARKEY AND PAR1NERS, ARCHITECfS
A30843   REPORT ON PREAWARD EVALUATION OF PROPOSED OVERHEAD AND            10/31/83
         SALARY RATES, BONESTROO, ROSENE, ANDERUK & ASSOCIATES,
         LUNDQUIST, WILMAR, SCHULTZ AND MARTIN, INC., SHEA ASSOCIATES,
         PROPOSAL NO. GS-05BG90471
A30855   PREAWARD EVALUATION OF SUPPLEMENTAL A-E PRICING PROPOSAL,         10/31/83
         LEE-THORP CONSULTING ENGINEERS, INC., CONTRACT NO. GS-llB-39013
A40025   REPORT ON CLAIM FOR INCREASED COSTS, THE GEORGE HYMAN CON-        10/31/83
         STRUCTION COMPANY
A40069   AUDIT OF CLAIM FOR INCREASED CONSTRUCTION MANAGEMENT              11/03/83
         FEES, GILBANE BUILDING COMPANY AND PARAMETRIC, INC., JOINT
         VENTURE, CONTRACT NO. GS-OOB-01888
A30838   PREAWARD AUDIT OF 8(A) PRICING PROPOSAL, HYDE'S SECURITY SERV-    11/04/83
         ICES, INC., CONTRACT NO. GS-04B-83441
A40030   PREAWARD EVALUATION OF SUPPLEMENTAL AlE PROPOSAL, VICTOR          11/08/83
         WILBURN ASSOCIATES
A30813   PREAWARD EVALUATION OF CHANGE ORDER PROPOSAL (PDL-95), C.         11/09/83
         RALLO CONTRACTING COMPANY, INC., ST. LOUIS, MISSOURI, CON-
         TRACT NO. GS-06B-81001
A30849   PREAWARD EVALUATION OF PRICING PROPOSAL, YOUNG JANITORIAL         11/09/83
         SERVICES, PROPOSED SUBCONTRACf NO. GS-08B-l0671
A40053   PREAWARD AUDIT OF 8(A) PRICING PROPOSAL, HYDE'S SECURITY SERV-    11/10/83
         ICES, INC., CONTRACf NO. GS-llG30232
A30802   REPORT ON PREAWARD EVALUATION OF PRICING PROPOSAL, ANDER-         11/14/83
         SON, NOTTER, FINEGOLDIMARIANI ASSOCIATES, JOINT VENTURE
A40033   REPORT ON LEASE ESCALATION PROPOSAL, BRAMALEA LIMITED -           11/16/83
          GRUBB & ELUS ASSOCIATES COTENANCY, LEASE NO. GS-09B-70395
A30785   LETTER REPORT - PREAWARD EVALUATION OF LEASE ESCALATION           11/23/83
         PROPOSAL, NORTHERN VIRGINIA JOINT VENTURE, LEASE NO. GS-
         03B-5854
A40051   PREAWARD EVALUATION OF PRICING PROPOSAL FOR JANITORIAL SERV-      11/23/83
         ICES, SEE CLEAR MAINTENANCE CORPORATION, SUBCONTRACTOR UN-
         DER U.S. SMALL BUSINESS ADMINISTRATION, SOUCITATION NO.
         RFP-2PPB-JG-24173 (NEG)
A30814   PREAWARD EVALUATION OF CHANGE ORDER PROPOSAL (PDL-93), C.         11/28/83
         RALLO CONTRACTING COMPANY, INC., ST. LOUIS, MISSOURI, CON-
         TRACf NO. GS-06B-81001
A30669   PREAWARD EVALUATION OF LEASE ESCALATION PROPOSAL, DISTRICT        11/30/83
         OF COLUMBIA JOINT VENTURE, LEASE NO. GS-03B-5873
A40049   PREAWARD EVALUATION OF PRICING PROPOSAL, CITY WIDE SECURITY       11/30/83
         SERVICES, INC., SUBCONTRACTOR UNDER U.S. SMALL BUSINESS AD.
         MINISTRATION, SOUCITATION NO. 2PPB-HW-24219 (NEG)
A40083   REPORT ON LEASE ESCALATION PROPOSAL, 275 MIDDLEFIELD RD.,         11/30/83
         MENLO PARK, CA, LEASE NO. GS-09B-75374
A40062   PREAWARD EVALUATION OF SUPPLEMENTAL AlE PROPOSAL HEISER-          12/09/83
         MAN AND GILES, CHARTERED
A40009   PREAWARD EVALUATION OF LEASE ALTERATION PRICING, ABSTRACT         12/13/83
         CONSTRUCTION COMPANY, SOUCITATION NO. GS-07B-11487
A40120   PREAWARD EVALUATION OF PRICING PROPOSAL, ANTAC JANITOR SERV-      12/15/83
         ICES, INC., SUBCONTRACTOR UNDER U.S. SMALL BUSINESS ADMINIS-
         TRATION, SOUCITATION NO. RFP-2PPB-JG-24182 (NEG)
A40132   PREAWARD EVALUATION OF PRICING PROPOSAL, MOTLEY'S SHAMPOO-        12/15/83
         ING COMPANY, SOUCITATION NO. 2PPB-ED-24155 (NEG)
A40125   PREAWARD PROPOSAL FOR A&B MAINTENANCE CORPORATION,                12/16/83
         CLEANING SERVICES, MIAMI, FLORIDA, CONTRACT NO. GS-D4B-83674                 29
     A30547   AUDIT REPORT - AUDIT OF CONSOLIDATED ACCOUNTING STATEMENT,         12/19/83
              DAWSON CONSTRUCTION COtvIPANY
     A305~8   AUDIT REPORT - REVIEW OF MASONRY CONTRACTORS. INC., STATE-         12/19/83
              MENT ON ACCOUNTING SUBMITTED TO THE GENERAL SERVICES
              BOARD OF CONTRACT APPEALS
     A30671   AUDIT REPORT - REVIEW OF BONITZ INSULATION COMPANY STATE-          12/18/83
              MENT ON ACCOUNTING SUBMITTED TO GENERAL SERVICES BOARD OF
              CONTRACT APPEALS
     A40138   PREAWARD EVALUATION OF PRICING PROPOSAL, GEORGE BUTLER AS-         12/19/83
              SOCIATES, INC., KANSAS CITY, MISSOURI, CONTRACT NO. GS-06B-42509
     A40117   PREAWARD EVALUATION OF SUPPLEMENTAL A-E PRICING PROPOSAL,          12/20/83
              TIlE COOPER-LECKY PARTNERSHIP, ARCHITECTS, CONTRACT NO.
              GS-11B-27407
     A40181   REPORT ON TERMINATION CLAIM OF ASSOCIATED                DESERT-   12/23/63
              DRY WATERPROOFING CONTRACTORS, INC., CONTRACT NO.
              GS-llB-32006
     A30742   REPORT ON AUDIT OF A CHANGE ORDER PROPOSAL, CONTINENTAL            12/27/83
              HELLER CORPORATION, CONTRACT NO. GS-09B-007-00SF, CHANGE RE-
              QUEST NO. 42
     A40122   PREAWARD PROPOSAL FOR DEMARION JANITORIAL SERVICES, INC.,          12/28/83
              CLEANING AND MAINTENANCE SERVICES, MIAMI, FLORIDA, CON-
              TRACT NO. GS-04B-83667
     A40123   PREAWARD PROPOSAL FOR DEMARION JANITORIAL SERVICES, INC.,          12/28/83
              CLEANING AND MAINTENANCE SERVICES, TUPELO, MISSISSIPPI, CON-
              TRACT NO. GS-04B-83676
     A40134   PREAWARD EVALUATION OF SUPPLEMENTAL AlE PROPOSAL SHELADIA          12/29/83
              ASSOCIATES INC.
     A30546   AUDIT REPORT - REVIEW OF ALGERNON-BLAIR, INC.'S STATEMENT ON       12/30/83
              ACCOUNTING SUBMITTED TO TIlE GENERAL SERVICES BOARD OF CON-
              TRACT APPEALS
     A40136   REPORT ON PREAWARD EVALUATION OF SUPPLEMENTAL AlE PRO-             12/30/83
              POSAL, KAMSTRA, DICKERSON AND ASSOCIATES, CONTRACT NO.
              GS-11B-27408
     A40156   PREAWARD EVALUATION OF SUPPLEMENTAL AlE PROPOSAL,                  12/30/83
              WILLIAMS, TREBILCOCK, AND WHITEHEAD
     A40139   PREAWARD EVALUATION OF PRICING PROPOSAL, W.H. JOHNSON AND          01/03/84
              ASSOCIATES, INC., KANSAS CITY, MISSOURI, CONTRACT NO. GS-
              06B-52029
     A40108   PREAWARD EVALUATION OF SUPPLEMENTAL A-E PRICING PROPOSAL,          01/05/84
              PECK, PECK AND ASSOCIATES, INC., CONTRACT NO. GS-llB-27406
     A40163   PREAWARD EVALUATION OF PRICING PROPOSAL, WRIGHT-PIERCE             01/06/84
     A40183   PREAWARD EVALUATION OF PRICING PROPOSAL, BUCHER, WILLIS, AND       01/06/84
              RATLIFF, SALINA, KANSAS, CONTRACT NO. GS-06B-41130
     A30693   REPORT ON AUDIT OF PROPOSED ALTERATION COSTS, FEDERAL PLAZA        01/13/84
              ASSOCIATES, LEASE NO. GS-05B-13381
     A40144   PREAWARD EVALUATION OF PROPOSED BASE PERIOD OPERATING              01/17/84
              COSTS, ANVAN REALTY AND MANAGEMENT Co., SOLICITATION NO. GS-
              05B-14096
     A40241   EVALUATION OF TERMINATION SETTLEMENT PROPOSAL, BUILDERS            01/17/84
              ONE, INC., CONTRACT NO. GS-05BC-82522
     A40118   EVALUATION OF CLAIM FOR INCREASED COSTS, COLUMBUS SERVICES,        01/18/84
              INC., CONTRACT NO. GS-03C-26028
     A40235   PREAWARD EVALUATION OF PRICING PROPOSAL, TIlE GUARD SERVICE        01/23/84
              COMPANY, INC., KANSAS CITY, MISSOURI, CONTRACT NO. GS-06B-47508-
              01
     A40127   PREAWARD EVALUATION OF PRICING PROPOSAL FOR SUPPLEMENTAL           01/24/84
              ARCHITECTIENGINEER SERVICES, JOSEPH TONETTI AND ASSOCIATES,
              CONTRACT NO. GS-02P-23303 (NEG)
     A40177   PREAWARD EVALUATION OF PRICING PROPOSAL, MULTIVAC, INC., CON-      01/25/84
30            TRACT NO. GS-11C-40013
A40171   LEASE ESCALATION PROPOSAL, THE CENTURY BUILDING, 2341 JEFFER-       02/07/84
         SON DAVIS ffiGHWAY, ARLINGTON, VIRGINIA, LEASE NO. GS-03B-60152
A40084   REPORT ON LEASE ESCALATION PROPOSAL, LAURENCE DAWSON,               02/10/84
         LEASE NO. GS-09B-77110
A40262   LETTER REPORT ON TIlE PREAWARD EVALUATION OF PRICING PRO-           02/13/84
         POSAL SUBMITTED BY AOKI BROTHERS CONSTRUCTION COMPANY,
         ANCHORAGE, ALASKA, PROJECT NO. RAK 92305, NOME, ALASKA
A40158   REPORT ON PREAWARD EVALUATION OF PRICING PROPOSAL, MC-              02/14/84
         CARTHER ENTERPRISES, INC., SOUCITATION NO. GS-07B-215BB
A40266   PREAWARD EVALUATION OF PRICING PROPOSAL, PHELPS PROTECTION          02/14/84
         SYSTEMS, INC., SOUCITATION NO. GS-03-B4-R-0001
A40278   PREAWARD EVALUATION OF PRICING PROPOSAL, PROFESSIONAL TECH-         02/14/84
         NICAL SERVICES, INC., ST. LOUIS, MO
A40188   LEASE ESCALATION, EQUITY MANAGEMENT, INC., DURANGO FEDERAL          02/14/84
         BUILDING, DURANGO, COLORADO, LEASE NO. GS-OBB-09877
A40186   AUDIT OF LEASE ESCALATION PROPOSAL, GROBMAN ENTERPRISES,            02/15/84
         AGENT FOR EXCHANGE NATIONAL BANK AS SUCCESSOR TRUSTEE UN-
         DER CENTRAL NATIONAL BANK, TRUST NO. 20596, LEASE NO. GS-
         05B-12711
A40002   LEASE ESCALATION PROPOSAL, A&R INVESTMENTS, AIRPORT SERVICE         02/16/84
         CENTER, DENVER, COLORADO, LEASE NO. GS-OBB-lOB04
A40236   PREAWARD EVALUATION OF PRICING PROPOSAL, SUPERIOR STEEL FAB-        02/17/84
         RICATION COMPANY, INC.
A40224   PREAWARD EVALUATION OF COST PROPOSAL, CONSOLIDATED METH-            02/21/84
         ODS, INC., SOUCITATION NO. GS-5BC-B2B01SBA
A40245   LETTER REPORT - REVIEW OF SETTLEMENT PROPOSAL SUBMITTED BY          02/21/84
         NATIONWIDE BUILDING MAINTENANCE, INC., CONTRACT NO. GS-
         05B-42260
A40057   REVIEW OF F. A. BAILEY & SONS, INC., STATEMENT ON ACCOUNTING        02/22/84
         SUBMITTED TO THE GENERAL SERVICES BOARD OF CONTRACT AP-
         PEALS
A40259   PREAWARD EVALUATION OF SUPPLEMENTAL ARCffiTECTIENGINEER             02/23/84
         SERVICES PROPOSAL, FRYERIPRESSLEY ENGINEERING, PROJECT NO.
         RAK32100
A40260   PREAWARD EVALUATION OF SUPPLEMENTAL ARCffiTECTIENGINEER             02/23/84
         SERVICES PROPOSAL, SKILUNG, WARD, ROGERS, BARKSffiRE, INC., PROJ-
         ECT NO. RAK32100
A40258   PREAWARD EVALUATION OF SUPPLEMENTAL ARCffiTECTIENGINEER             02/24/83
         SERVICES PROPOSAL, DOWL ENGINEERS, PROJECT NO. RAK32100
A40261   PREAWARD EVALUATION OF SUPPLEMENTAL ARCffiTECTIENGlNEER             02/24/84
         SERVICES PROPOSAL, ECIIHYER, PROJECT NO. RAK32100
A40288   PREAWARD PROPOSAL EVALUATION, JAYFRO CORPORATION, WATER-            02/24/84
         FORD, CONNECTICUT
A40032   REVIEW OF A LEASE ESCALATION PROPOSAL, TISHMAN WEST MAN-            02/27/84
         AGEMENT CORP., LEASE NO. GS-09B-73066
A40028   EVALUATION OF CLAIM FOR INCREASED CONSTRUCTION COSTS, SSA           02/29/84
         METRO WEST BUILDING, G&M CONSTRUCTION CORPORATION, CON-
         TRACT NO. GS-03B-7B076
A40034   PREAWARD EVALUATION OF A-E PRICE PROPOSAL, MMP INTERNA-             02/24/84
         TIONAL, INC., CONSULTANT TO KEYES, CONDON, FLORANCE ASSOCI-
         ATES, CONTRACT NO. GS-11B-39009
A40035   PREAWARD EVALUATION OF A-E PRICE PROPOSAL, RED WALTHER'S            02/29/84
         PLAN ROOM, CONSULTANT TO KEYES, CONDON, FLORANCE ASSOCI-
         ATES, CONTRACT NO. GS-llB-39009
A40036   PREAWARD EVALUATION OF A-E PRICE PROPOSAL, EDAW, INC., CONSUL-      02/29/84
         TANT TO KEYES, CONDON, FLORANCE ASSOCIATES, CONTRACT NO.
         GS-llB-39009
A40037   PREAWARD EVALUATION OF A-E PRICE PROPOSAL, JAMES MADISON            02/29/84
         CUTTS, CONSULTANT TO KEYES, CONDON, FLORANCE ASSOCIATES,
         CONTRACT NO. GS-11B-39009                                                      31
     A40038   PREAWARD EVALUATIDN DF A-E PRICE PRDPDSAL, GIDRGID CAV-             02/29/84
              AGLIERI, CDNSULTANT TO. KEYES, CDNDDN, FLDRANCE ASSDCIATES,
              CDNTRACT NO. GS-IIB-39009
     A40338   PREAWARD EVALUATIDN DF PRICING PRDPDSAL, SF! LAND COMPANY,          03/05/84
              KANSAS CITY, MISSDURI
     A30576   REPDRT DN CLAIM FDR INCREASED CDSTS, TIlE PIRACCI CDRPDRA-          03/07/84
              TIDN, CDNTRACT NO.. GS-00B-01834
     A40354   REVIEW DF PRDPDSED DPERATING CDSTS ESCALATIDN, CASCO. BANK          03/07/84
              BUILDING, AUBURN, MAINE, LEASE NO.. GS-01B-02947
     A40024   PREAWARD EVALUATIDN DF A-E PRICING PRDPDSAL, KEYES, CDNDDN,         03/07/84
              FLDRANCE ARCHITECTS, CDNTRACT NO. GS-IIB-39009
     A40289   PREAWARD EVALUATIDN DF PRICING PRDPDSAL, CRYSTAL INDUSTRIAL         03/08/84
              MAINTENANCE COMPANY, INC.
     A40352   PREAWARD EVALUATIDN DF PRDPDSAL BY A&B MAINTENANCE CDRP.            03/08/84
              FDR CLEANING SERVICES, FDRT LAUDERDALE, FLDRIDA, SDLICITATIDN
              NO.. GS-04B-84604
     A30549   REVIEW DF ATLANTIC ELECTRIC CDMPANY, INC., STATEMENT DN AC-         03/09/84
              CDUNTING SUBMITTED TO. THE GENERAL SERVICES BDARD DF CDN-
              TRACT APPEALS
     A30850   LEASE ESCALATIDN, CDNTINENTAL INVESTMENT SERVICES, INC., LIN-       03/09/84
              CDLN TDWER BUILDING, DENVER, CDLDRADD, LEASE NO.. GS-08B-I0732
     A40207   PREAWARD EVALUATIDN DF REVISED PRICING PRDPDSAL, RDGERS,            03/13/84
              NAGEL, LANGHART, INC., PRDJECT NO.. GS-06B-05'109, AMENDMENT NO..
              5
     A40219   AUDIT DF TERMINATIDN SETTLEMENT PRDPDSAL, GRAMERCY CDN-             03/13/84
              TRACTDRS, INC., CDNTRACT NO.. GS-02B-23199
     A30866   REPDRT DN CLAIMS FDR INCREASED CDSTS, TIlE PIRACCI CDRPDRA-         03/19/84
              TIDN, CDNTRACT NO. GS-OOB-01834
     A40107   REPDRT DN SYSTEMS SURVEY, DDNDHDE CDNSTRUCTIDN CDMPANY,             03/19/84
              INC., CDNTRACT NO.. GS-I1B-20054
     A40256   EVALUATIDN DF CHANGE DRDER PRICING PRDPDSAL, ELRICH CDN-            03/19/84
              STRUCTIDN CDMPANY, CDNTRACT NO. GS-I1B-28199
     A40275   AUDIT DF THE CAFETERIA AND VENDING DPERATIDNS, AUSTIN,              03/19/84
              TEXAS, BY SDUTIlERN CAFETERIA CDMPANY, INC., BIRMINGHAM, ALA-
              BAMA, CDNTRACT NO.. GS-07B-20052
     A40305   PREAWARD REVIEW DF CHANGE DRDER PRDPDSAL, AFGD ENGINEER-            03/20/84
              ING CDRPDRATIDN DF WASHINGTDN, CDNTRACT NO. GS-IIB-28389
     A30657   EVALUATIDN DF CLAIM FDR EQUITABLE ADJUSTMENTS, FLDUR CITY           03/22/84
              ARCHITECTURAL METALS CDRP., CDNTRACT NO. GS-03B-78040
     A40291   PDSTAWARD AUDIT DF ADKISDN, LEIGH, SIMS, CUPPAGE, ARCHITECTS,       03/23/84
              PS, GS-I0P-02580
     A40312   PDSTAWARD AUDIT DF DDYLE ENGINEERING, INCDRPDRATED, GS-lOP-         03/23/84
              02580
     A40313   PDSTAWARD AUDIT DF LUHN, SHAFER, & LUHN ENGINEERS, GS-10P-          03/23/84
              02580
     A40297   PREAWARD EVALUATIDN DF PRICING PRDPDSAL FDR SUPPLEMENTAL            03/26/84
              ARCHITECTIENGlNEER SERVICES, SHDRT & FDRD ARCHITECTS, CDN-
              TRACT NO.. GS-02P-23308 (NEG)
     A40021   AUDIT DF DELAY CLAIM, BUILDING 221, FLETC, GLYNCO., GEDRGIA,        03/29/84
              STEPHENSDN ASSDCIATES, INC., CDNTRACT NO.. GS-04B-16979 (N)
     A40307   PREAWARD EVALUATIDN DF A PRICE PRDPDSAL, KASS MANAGEMENT            03/29/84
              SERVICES, INC., SDLICITATIDN NO.. RFP-DPR-9PPB-83-01166
     A40205   PREAWARD EVALUATIDN DF LEASE ALTERATIDN PRICING PRDPDSAL,           03/30/84
              TDTAL MANAGEMENT, INC., CDNTRACT NO. GS-03B-05876
     A40334   PREAWARD AUDIT DF PRICING PRDPDSAL, CASSIDY CLEANING, INC.,         03/30/84
              CDNTRACT NO. GS-11C-40024


32
PBS      Internal & Inspection Audits

A40006   REVIEW OF LEASE ESCALATION FOR LEASE NO. GS-04B-15564, 700        10/04/83
         TWIGGS STREET, TAMPA, FLORIDA
A30829   LETTER REPORT: ENERGY CONSUMPTION, IRS DATA CENTER, DETROIT,      10/05/83
         MICHIGAN
A30870   PREAWARD LEASE REVIEW: 3702-3710 IRONWOOD PLACE, LANDOVER,        10/06/83
         MARYLAND, LEASE NO. GS-llB-30043
A40005   PREAWARD LEASE REVIEW: TYLER BUILDING, 1759 OLD MEADOW ROAD,      10/07/83
         MCLEAN, VIRGINIA, LEASE NO. GS-llB-20088
A40011   PROPOSED AWARD OF SUCCEEDING LEASE: SOUTH TOWERS BUILDING,        10/12/83
         4340 EAST WEST ffiGHWAY, BETHESDA, MARYLAND, LEASE NO.
         GS-llB-30044
A30852   LETTER REPORT ON REVIEW OF CONTRACT NO. GS-01B-02275, INTER-      10/14/83
         NAL REVENUE SERVICE CENTER, ANDOVER, MASSACHUSETTS
A40004   PREAWARD REVIEW OF PROPOSED LEASE GS-07B-1780: BUILDING K,        10/19/83
         SOUTH PARK 4175 FRIEDRICK, AUSTIN, TEXAS
A30425   REVIEW OF THE ENERGY CONSERVATION PROGRAM AT THREE FEDERAL        10/20/83
         BUILDINGS IN NEW ORLEANS, LOUISIANA
A40014   PROPOSED LEASE AWARD, GS-07B-11728, FIRST NATIONAL BANK BUILD-    10/21/83
         ING, EAST, ALBUQUERQUE, NEW MEXICO
A40019   PROPOSED AWARD OF SUCCEEDING LEASE, CONTRACT NO. GS-              10/25/83
         OlB-(PEL)-03399 NEG.
A40063   PREAWARD LEASE REVIEW: PENTAGON WAREHOUSE, 1200 S. EADS           10/28/83
         STREET, ARLINGTON, VA, LEASE NO. GS-llB-20007
A30203   REVIEW OF THE BUILDINGS MANAGEMENT FIELD OFFICE,                  10/31/83
         BROOKHAVEN, NEW YORK, REGION 2
A30424   LEASE REVIEWIINSPECTION, VA OUTPATIENT CLINIC, OAKLAND PARK,      10/31/83
         FLORIDA, LEASE NO. GS-04B-20615
A40008   PROPOSED AWARD OF SUCCEEDING LEASE, 113 AVENUE, MINEOLA,          10/31/83
         NEW YORK, LEASE NO. GS-02B-22168
A40075   PREAWARD LEASE REVIEW - LUZERNE PRODUCTS BUILDING, WILKES-        11/03/83
         BARRE,PA
A40080   PROPOSED AWARD OF LEASE: 95 CHURCH ST./300 HAMILTON AVENUE,       11/07/83
         WHITE PLAINS, NEW YORK
A30751   INSPECTION OF CONTRACT NO. GS-03B-88092, APPRAISERS STORE, BAL-   11/08/83
         TIMORE, MD.
A30237   REPORT ON REVIEW OF REGION 6'S PROCEDURES FOR CAPITALIZING        11/09/83
         EXPENDITURES FOR REPAIR AND ALTERATION WORK
A30826   NEW CONSTRUCTION, FEDERAL BUILDING AND COURTHOUSE, ASH-           11/10/83
         LAND, KENTUCKY
A40077   PREAWARD LEASE REVIEW: 1400 S. EADS STREET, ARLINGTON, VA,        11/14/83
         LEASE NO. GS-IIB-40000
A40098   PREAWARD LEASE REVIEW, ANNEX ADMINISTRATION BUILDING, RE-         11/14/83
         SEARCH TRIANGLE PARK, NORTH CAROLINA, LEASE NO. GS-04B-23155
A40085   PREAWARD LEASE REVIEW, PACES FERRY-PEACHTREE BUILDING, lNG,       11/15/83
         ATLANTA, GEORGIA, LEASE NO. GS-04B-23197
A40112   PREAWARD LEASE REVIEW: BROYHILL BLDG., 1000 N. GLEBE ROAD,        11/16/83
         ARLINGTON, VA, LEASE NO. GS-IIB-30042
A40105   PROPOSED AWARD OF SUPPLEMENTAL LEASE AGREEMENT #3, CON-           11/18/83
         TRACT NO. GS-OIB(pRA)-03613
A40113   PREAWARD LEASE REVIEW - OFFICE BUILDING #3, LINTHICUM, MD.        11/21/83
A40101   INSPECTION OF MAINTENANCE CONTRACT, CUSTOM HOUSE BUILDING,        11/23/83
         PffiLADELPHIA, PA



                                                                                      33
     A40102        INSPECTION OF MAINTENANCE CONTRACT, SOCIAL SECURITY BUILD-             11/23/83
                   lNG, 3RD AND SPRING GARDEN STS., PHILADELPHIA, PA.
     A40130        PREAWARD LEASE REVIEW: 8199-8199B BACKLICK ROAD, SPRINGFIELD,          11/23/83
                   VA., LEASE NO. GS-IIB-40002
     A30290        FINAL REPORT ON REVIEW OF LEASE ENFORCEMENT, GRAMAX BUILD-             11/25/83
                   lNG, LEASE NO. GS-IIB-20028, SILVER SPRING, MARYLAND
     A30058        INSPECTION OF THE LEASE FOR 300 SOUTH WACKER DRIVE, CHICAGO,           11/28/83
                   ILLINOIS
     A40135        PREAWARD LEASE REVIEW: 1311 SOUTH FERN STREET, ARLINGTON, VA.,         11/28/83
                   LEASE NO. GS-IIB-40001
     PBSL0582      FINAL REPORT ON INSPECTION OF REQUIRED SERVICES OF LEASE NO.           11/28/83
                   GS-03B-5706, MARTIN VAN BUREN BUILDING, ARLINGTON, VA.
     A30339        FINAL REPORT ON THE INSPECTION OF CONTRACT NO. GS-OIB-02166,           11/29/83
                   CONSTRUCTION-PHASE II, FEDERAL BUILDING AND U.S. COURTHOUSE,
                   SPRINGFIELD, MA.
     A30519        REVIEW OF AlE ENERGY STUDIES AND IMPLEMENTATION OF RECOM-              11/29/83
                   MENDATIONS, REGION 8
     A40050        PROPOSED AWARD OF LEASE: 2600 MT. EPHRIAM AVE., CAMDEN, N.J.           11/29/83
     4D208870606   STRONGER CONTROLS ARE NEEDED AT THE MART FIELD OFFICE TO EN-           11/29/83
                   SURE EFFECTIVE OPERATIONS AND COMPLIANCE WITH PRESCRIBED
                   PROCEDURES
     A30519        REVIEW OF AlE ENERGY STUDIES AND IMPLEMENTATION OF RECOM-              11/30/83
                   MENDATIONS, REGION 9
     A30874        FINAL REPORT ON REVIEW OF LEASE ENFORCEMENT, WILLSTE BUILD-            11/30/83
                   lNG, LEASE NO. GS-IIB-20003, SILVER SPRING, MARYLAND
     A40141        PREAWARD LEASE REVIEW: CRYSTAL PLAZA NO. 2, 2011 JEFFERSON             11/30/83
                   DAVIS HIGHWAY, ARLINGTON, VA., LEASE NO. GS-IIB-30040
     A30457        LETTER REPORT - UTILITY OVERCHARGES, JFK AIRPORT                       12/02/83
     A40114        REPORT ON PROPOSED AWARD OF LEASE, 320 NORTH CARROLLTON AV-            12/05/83
                   ENUE, NEW ORLEANS, LOUISIANA
     A40137        REPORT ON REVIEW OF GOVERNMENT-OWNED, CONTRACTOR-OPER-                 12/08/83
                   ATED(GOCO) DRAFT CONTRACT
     A30184        REPORT ON THE NEED FOR INSTALLATION OF A NEW FIRE ALARM SYS-           12/09/83
                   TEM AT THE PENTAGON
     PBSE0182      LETTER REPORT - POTENTIAL SAFETY PROBLEMS IN THE CENTRAL,              12/13/83
                   WEST AND VIRGINIA HEATING PLANTS
     PBSL0282      REVIEW OF QUESTIONED APPRAISAL AND LEASE ACTIONS IN THE NA-            12/23/83
                   TIONAL CAPITAL REGION
     A40199(i}     INTERIM REPORT INSPECTION OF CONTRACT GS-08B-78501, BUILDING           12/27/83
                   REMODELING AND SITE WORK, POST OFFICE/COURTHOUSE, 35 SOUTH
                   MAIN STREET, SALT LAKE CITY, UTAH
     A40187        PREAWARD LEASE REVIEW, SOUTHEDGE BUILDING, 370 REED ROAD,              12/28/83
                   BROOMALL, PA.
     A30110        REVIEW OF OGDEN BUILDINGS MANAGEMENT FIELD OFFICE, OFFICE OF           12/29/83
                   PUBLIC BUILDINGS AND REAL PROPERTY, REGION 8
     A40213        PREAWARD LEASE REVIEW, WASHINGTON SQUARE OFFICE BUILDING,              01/03/84
                   MIAMI, FLORIDA, LEASE NO. GS-04B-24115
     5D206221111   VERIFICATION AND ANALYSIS OF THE GENERAL LEDGER ACCOUNTS               01/04/84
                   FOR THE FEDERAL BUILDINGS FUND, NATIONAL CAPITAL REGION YEAR
                   ENDED SEPTEMBER 30, 1982
     A40221        PREAWARD LEASE REVIEW GSNADTS SWITCHING STATION GRASSY                 01/06/84
                   LICK ROAD, ROMNEY, W. v.
     A40233        LETTER REPORT - PREAWARD LEASE REVIEW, HOLYOKE BUILDING,               01/09/84
                   SEATTLE, WASHINGTON, LEASE NO. GS-I0B-05110; (lOA LTR DATED DE-
                   CEMBER 20, 1983)
     A40234        PREAWARD LEASE REVIEW: BENJAMIN FRANKLIN OFFICE BUILDING,              01/09/84
                   1405 EYE STREET, N.W., WASHINGTON, D.C., LEASE NO. GS-03B-5543, SUP-
34                 PLEMENTAL AGREEMENT NO. 34
A40240        PREAWARD LEASE REVIEW: 1725-35 15TIl STREET, N.E., WASHINGTON,      01/09/84
              D.C., LEASE NO. GS-llB-30049
A40013        REVIEW OF COLORADO SPRINGS BUILDINGS MANAGEMENT FIELD OF-           01/10/84
              FcE' OFFICE OF PUBLIC BUILDINGS AND REAL PROPERTY, REGION 8
A40243        PREAWARD LEASE REVIEW: ROCKWALL BLDG., 11400 ROCKVILLE PIKE,        01/10/84
              ROCKVILLE, M.D., LEASE NO. GS-llB-40007
5D206240707   REVIEW OF FEDERAL BUILDING FUND, REGION 7                           01/10/84
A30010        AUDIT OF REGIONAL APPRAISAL STAFF, REGION 2                         01/18/84
A30819        INQUIRY INTO ALLEGED FIRE ALARM SYSTEM DEFICIENCIES AT THE          01/19/84
              DENVER FEDERAL CENTER, OIG HOTLINE COMPLAINT H-83-242
A30821        REVIEW OF LEASE-BUILD PROJECT (HOBBS BUILDING) TALLAHASSEE,         01/19/84
              FLORIDA
A40249        PREAWARD LEASE REVIEW: YORKTOWN BUILDING, 8001 FORBES PLACE,        01/19/84
              SPRINGFIELD, VIRGINIA, LEASE NO. GS-llB-30017
A40247        PREAWARD LEASE REVIEW: 2025 M STREET, N.W., WASHINGTON, D.C.,       01/20/84
              LEASE NO. GS-llB-30017
A40269        PROPOSED AWARD OF LEASE: 755 PARFET STREET, LAKE-                   01/20/84
              WOOD, COLORADO, LEASE NO. GS-08P-11949
NYPBSB0182    INSPECTION OF THE BUILDINGS MANAGEMENT FIELD OFFICE, 225 CAD-       01/20/84
              MAN PLAZA, BROOKLYN, N.Y
A30875        LEASE CONSTRUCTION, 500 BUILDING, BIRMINGHAM, ALABAMA               01/23/84
A40116        REPORT ON REVIEW OF BASIS FOR CONTRACTING OFFICER'S PROPOSED        01/25/84
              WAIVER OF AUDIT, MODIFY AIR CONDITIONING SYSTEM, FEDERAL
              BUILDING USPO-COURTHOUSE, BEAUMONT, TEXAS, PROJECT NO.
              RTX80102, CONTRACT NO. GS-07B-31321
A40270        PROPOSED LEASE EXTENSION, GS-09B-70395, 1221 BROADWAY,              01/25/84
              OAKLAND, CALIFORNIA
A30110        AUDIT OF TIlE USE OF REPAIR AND ALTERATION FUNDS, OFFICE OF         01/26/84
              PUBLIC BUILDINGS AND REAL PROPERTY, REGION 8
TPBSL0182     INSPECTION OF TIlE MARTINSBURG, WEST VIRGINIA, IRS NATIONAL         01/31/84
              COMPUTER CENTER
A40199        REVIEW OF CONTRACT GS-08B-78501, BUILDING REMODELING AND SITE       02/02/84
              WORK, POST OFFICE/COURTHOUSE, 350 SOUTH MAIN ST., SALT LAKE
              CITY, UTAH (PHASE 2)
A40306        REPORT ON ADVISORY REVIEW OF PROPOSED LEASE AWARD, LEASE NO.        02/07/84
              GS-06P-48313, 722-26 MINNESOTA, KANSAS CITY, KANSAS
A40276        PROPOSED AWARD OF LEASE: INSURANCE EXCHANGE BUILDING, CHI-          02/09/84
              CAGO, ILLINOIS
A40153        REVIEW OF REGION 7 MISCELLANEOUS SPACE ALTERATIONS, BOB             02/10/84
              CASEY FEDERAL BUILDING AND U.S. COURTIlOUSE, HOUSTON, TEXAS
A40314        PROPOSED AWARD OF LEASE, 143 UNION BLVD, LAKEWOOD, COLO-            02/10/84
              RADO, LEASE NO. GS-08P-11951
A30820        REVIEW OF REPAIR AND ALTERATION FIVE YEAR WORK ITEM INVEN-          02/14/84
              TORY, REGION 10
A40343        PREAWARD LEASE REVIEW: 1600 WILSON BLVD., ARLINGTON, VA., LEASE     02/24/84
              NO. GS-llB-40006
A30609        REVIEW OF GSA ENERGY CONSERVATION PROGRAM AT LEASE FACILITY,        Q2/27/84
              175 w. JACKSON, CHICAGO, GS-05BC-12447
A40347        PREAWARD LEASE REVIEW: 10 P STREET, S.w., WASHINGTON, D.c., LEASE   02/28/84
              NO. GS-llB-30048
A30519        FINAL REPORT ON REVIEW OF AlE ENERGY STUDIES AND IMPLEMENTA-        02/29/84
              TION OF RECOMMENDATIONS, REGION 10
A40133        LETTER REPORT - RECENT EFFORTS TO IMPROVE CONTROLS OVER             02/29/84
              STEAM BILLINGS AT TIlE WASHINGTON NAVY YARD NEED FURTHER IM-
              PROVEMENT
A40348        PREAWARD LEASE REVIEW: CHESTER ARTHUR BUILDING, 425 I STREET,       02/29/84
              N.W., WASHINGTON, D.c., LEASE NO. GS-03B-6422                                  35
     A30747   REVIEW OF PROPOSED SETILEMENTOF A LAWSUIT THROUGH A LEASE         03/06/84
              MODIFICATION AGREEMENT FOR THE ECOM BUILDING, TINTON FALLS,
              NEW JERSEY, LEASE NO. GS-02B-15526
     A30641   AUDIT REPORT: REVIEW OF AN ALLEGATION THAT UNNECESSARY            03/07/84
              RENTAL COSTS WERE INCURRED BECAUSE A TENANT AGENCY DID NOT
              WANT TO MOVE
     A30754   REVIEW OF THE ENERGY USAGE AT TWO FEDERAL BUILDINGS IN KAN-       03/12/84
              SAS CITY, MISSOURI
     A40368   PREAWARD LEASE REVIEW: TAMOL BUILDING, 4228 WISCONSIN AVE-        03/12/84
              NUE, N.W., WASHINGTON, D.C., LEASE NO. GS-IIB-40021
     A30609   FINAL REPORT OF REVIEW OF GSA ENERGY CONSERVATION PROGRAM,        03/14/84
              U.S. CUSTOM HOUSE, CHICAGO, ILLINOIS
     A30845   REVIEW OF THE ENERGY CONSERVATION PROGRAM AT THE RICHARD B.       03/14/84
              RUSSELL FEDERAL BUILDING, ATLANTA, GEORGIA
     A40392   AUDIT REPORT: PREAWARD LEASE REVIEW - LYON BUILDING, WOOD-        03/16/84
              LAWN,MD.
     A40316   REPORT ON PROPOSED LEASE AWARD, GS-07B-11742, EG&G BUILDING,      03/19/84
              933 BRADBURY, S.E., ALBUQUERQUE, NEW MEXICO
     A40377   GAO HOTLINE COMPLAINT NO. 30446 - DECLARING EXCESS USABLE         03/19/84
              PROPERTY IN HARAHAN, LOUISIANA, REGION 7
     A40353   PROPOSED AWARD OF LEASE EXTENSION, LEASE NO. GS-OIB-02967,        03/20/84
              WILMINGTON, MASSACHUSETTS
     A30590   REVIEW OF THE BUILDING MANAGEMENT OPERATIONS AT THE WHITE         03/21/84
              HOUSE DISTRICT OFFICE
     A40409   PROPOSED LEASE EXTENSION, GS-09B-77314, 101 NORTH FIRST AVENUE,   03/22/84
              PHOENIX, ARIZONA
     A40418   PREAWARD LEASE REVIEW: E-1 BUILDING, RESTON, VIRGINIA (LEASE      03/22/84
              NO. GS-I1B-40019)
     A40413   PREAWARD LEASE REVIEW: 12420 PARKLAWN DRIVE, ROCKVILLE, MARY-     03/26/84
              LAND, LEASE NO. GS-llB-30045
     A40124   LETTER REPORT - INSPECTION OF MAINTENANCE CONTRACT, 600           03/27/84
              WEST MADISON STREET, CHICAGO, IL.
     A30688   REVIEW OF THE ENERGY PROGRAM AT THE FEDERAL BUILDING AND          03/27/84
              U.S. COURTHOUSE, DETROIT, MICHIGAN
     A30526   REVIEW OF THE IMPLEMENTATION OF PUBLIC LAW 98-8, "JOBS BILL" -    03/29/84
              PHASE I
     A40412   PREAWARD LEASE REVIEW: STAR BUILDING, 1101 PENNSYLVANIA AVE-      03/29/84
              NUE, N.W., WASHINGTON, D.c., LEASE NO. GS-03B-6139
     A30115   GSA'S EFFORT TO ELIMINATE UNNEEDED SPACE AND REDUCE RENTAL        03/30/84
              COSTS IN THE NATIONAL CAPITAL REGION
     A40422   AUDITREPORT-PROPOSEDLEASEAWARD,GS-09B-81698,1521-33WEST           03/30/84
              PICO BLVD., LOS ANGELES, CA.
     A40430   PREAWARD LEASE REVIEW - CURTIS BUILDING - 625 WALNUT STREET,      03/30/84
              PHILADELPHIA, PA.
     A40433   PREAWARD LEASE REVIEW: COLONIAL PARKING, INC., 1800 G STREET,     03/30/84
              N.W., WASHINGTON, D.C., LEASE NO. GS-IIB-40023



     FSS      contract Audits
     A30733   PREAWARD EVALUATION OF PRICING PROPOSAL, H. LAUZON FUR-           10/03/83
              NITURE Co., SOLICITATION NO. FNP-S2-1436-N-4-7-83
     A30635   PREAWARD EVALUATION OF PRICE PROPOSAL, NALCO CHEMICAL COM-        10/04/83
              PAN¥, SOLICITATION NO. FGS-N-36411-N-5-25-83
     A40003   AUDIT REPORT ON EVALUATION OF PRICE PROPOSAL, SOLICITATION        10/04/83
              NO. YGS-G-36409-N-2-14-83, BERNSTEN, INC.
     A30294   REPORT ON POST AWARD AUDIT, INSTRUMENTATION LABORATORIES,         10/13/83
36            INC., CONTRACT NO. GS-OOS-45163
A30801        PREAWARD EVALUATION OF PRICING PROPOSAL FOR SECURITY               10/14/83
              PADLOCKS, SARGENT & GREENLEAF, INC., NICHOLASVILLE, KY, SOLIC-
              ITATION NO. ATITC19413
A30795        PREAWARD EVALUATION OF A PRICING PROPOSAL, HANDAR, INCORPO-        10/17/83
              RATED, SOLICITATION NO. FGS-H-36410-N-4-11-83
28209340004   POST AWARD AUDIT OF CONTRACT NO. GS-OOS-23207, LANIER BUSI-        10/17/83
              NESS PRODUCTS, INC.
28209340004   POST AWARD AUDIT OF CONTRACT NO. GS-OOS-92760, LANIER BUSI-        10/17/83
              NESS PRODUCTS, INC.
A30777        POST AWARD AUDIT OF A MULTIPLE AWARD SCHEDULE CONTRACT,            10/19/83
              SONY CORPORATION OF AMERICA, CONTRACT NO. GS-OOS-41394
A30836        PREAWARD EVALUATION OF PRICING PROPOSAL, CAMBRIDGE INSTRU-         10/19/83
              MENTS, INC., SOLICITATION NO. FSG-Q-36412-N-7-8-83
A30848        AUDIT REPORT ON PREAWARD EVALUATION OF PRICING PROPOSALS,          10/19/83
              SOLICITATION NO. FNP-C1-1336-N-2-23-82; OVERLY MANUFACTURING
              COMPANY, C;REENSBURG~PENNSYLVANtA--
A30706        PREAWARD AUDIT OF COST OR PRICING DATA, MARQUETTE METAL            10/21./83
              PRODUCTS COMPANY, SOLICITATION NO. FEN-EW-A3116-N-4-18-83
A30740        REVIEW OF VEHICLE RENTAL CONTRACT, AMERICAN INTERNATIONAL          10/21/83
              RENT-A-CAR, DALLAS, TEXAS, CONTRACT NO. GS-OOS-64273
A30832        PREAWARD EVALUATION OF AMRAY, INC., SOLICITATION NO. FGS-          10/26/83
              Q-36412-N-7-8-83
A30835        REPORT ON PREAWARD EVALUATION OF PRICING PROPOSAL, AO SCIEN-       10/27/83
              TIFIC INSTRUMENTS DIVISION, WARNER LAMBERT TECHNOLOGIES,
              INC., SOLICITATION NO. FSG-Q-36412-N-7-8-83
A40015        PREAWARD EVALUATION OF PRICING PROPOSAL, MONARK BOAT COM-          10/31/83
              PANY, MONTICELLO, ARKANSAS, SOLICITATION NO. 10PN-NCS-0203
A40041        REVIEW OF PROGRESS PAYMENT REQUEST NO.1, COLLINS INDUSTRIES,       10/31/83
              INC., HUTCHINSON, KANSAS
A40016        PREAWARD EVALUATION OF PRICE PROPOSAL, TELEX COMMUNICA-            11/03/83
              TIONS, INC., SOLICITATION NO. GSA-3FC-83-N-009
A30373        REPORT ON POST AWARD AUDIT OF ABBOTT LABORATORIES, DIAG-           11/04/83
              NOSTICS DMSIONS, CONTRACT NO. GS-OOS-45161
A30711        POST AWARD AUDIT OF PRICE REDUCTIONIDEFECTIVE PRICING, CON-        11/04/83
              TRACT NO. GS-OOS-63027, LANIER BUSINESS PRODUCTS, INC.
A30834        REVIEW OF VEHICLE RENTAL AGREEMENTS, THRIFTY RENT-A-CAR, OK-       11/04/83
              LAHOMA CITY, OKLAHOMA, CONTRACT NO. GS-00S-64237
A40029        AUDIT REPORT ON THE POST AWARD REVIEW OF MECHANICS CHOICE'S        11/04/83
              (FORMERLY FAIRMONT MOTOR PRODUCTS), ANALYSIS OF REFUND DUE
              TO THE GOVERNMENT
2C200830702   POSTAWARD AUDIT OF A MULTIPLE AWARD SCHEDULE CONTRACT,             11/04/83
              WESTINGHOUSE ELECTRIC CORPORATION, CONTRACT NO. GS-
              00S-86884
A30846        EVALUATION OF TERMINATION SETTLEMENT PROPOSAL, POHLIG              11/09/83
              BROTHERS, INC., CONTRACT NO. GS-05S-12699
A40096        PREAWARD EVALUATION OF PRICING PROPOSAL, AMETEX CONTRACT           11/10/83
              FABRICS, SOLICITATION NO. BO/FS-L-00423
A40078        PREAWARD EVALUATION OF PRICE PROPOSAL, WENGER CORPORATION,         11/14/83
              SOLICITATION NO. 10PN-NLS-0208
A30878        PREAWARD EVALUATION OF PRICING PROPOSAL - E. LEITZ, INC., SOLIC-   11/16/83
              ITATION NO. FGS-Q-36412-N-7-8-83
A40044        PREAWARD EVALUATION OF PRICING PROPOSAL, PHILLIPS ELECTRONIC       11/16/83
              INSTRUMENTS, INC., SOLICITATION NO. FGS-Q-36412-N
A40093        PREAWARD EVALUATION OF PRICING PROPOSAL, UNIVERSAL GYM             11/28/83
              EQUIPMENT, INC., CEDAR RAPIDS, IOWA, SOLICITATION NO. 10PN-NLS-
              0208
A40017        PREAWARD EVALUATION OF PRICE PROPOSAL, RESEARCH TECH-              11/29/83
              NOLOGY INTERNATIONAL, SOLICITATION NO. GSA-3FC-83-N-009                        37
      A40089   PREAWARD EVALUATION OF PRICE PROPOSAL, BRUNSWICK CORPORA-          11/29/83
               TION, BRUNSWICK BOWLING DMSION, SOLICITATION NO. 10PN-NLS-
               0208
      A30873   PREAWARD EVALUATION OF MULTIPLE AWARD SCHEDULE CONTRACT            11/30/83
               PROPOSAL, ZODIAC OF NORTH AMERICA, INC., SOLICITATION NO. 10PN-
               NCS-0203
      A40027   REVIEW OF VEHICLE RENTAL AGREEMENTS, THRIFTY RENT-A-CAR,           11/30/83
               KENNER, LOUISIANA, CONTRACT NO. GS-OOS-64168
      A40065   PREAWARD EVALUATION OF PROPOSAL SUBMITTED FOR MULTIPLE             11/30/83
               AWARD SCHEDULE CONTRACT; SOLICITATION NO. FGS-Q-36412-N-7-83;
               KJ. DuPONT DE NEMOURS & CO., INC., WILMINGTON, DELAWARE
      A40074   PREAWARD EVALUATION OF FOROX CORPORATION, SOLICITATION NO.         11/30/83
               GSA-3FC-83-N-009
      A40081   PREAWARD EVALUATION OF PRICING PROPOSAL, CARL ZEISS, INC., SO-     11/30/83
               LICITATION NO. FGS-Q-36412-N
     -A3U872   PREAWARU-EVALUATIONOF PROPOSED UNIT PRICES, GENERAL IN-            12/01/8:f
               STRUMENT CORPORATION, SOLICITATION NO. 7CF-522151L5/7YC
      A40099   PREAWARD EVALUATION OF PRICING PROPOSAL SUBMITTED BY HON-          12/02/83
               EYWELL INC., TEST INSTRUMENTS DMSION, LITTLETON, COLORADO,
               IN RESPONSE TO SOLICITATION NO. FGS-V-36414-N-9-29-83
      A30692   POSTAWARD AUDIT OF A MULTIPLE AWARD CONTRACT, DICTAPHONE           12/05/83
               CORPORATION, CONTRACT NO. GS-OOS-63040
      A40066   EVALUATION OF TERMINATION SETTLEMENT PROPOSAL, FRANKLIN            12/05/83
               INSTRUMENT COMPANY, INC., CONTRACT NO. GS-OWS-52051
      A40071   PREAWARD EVALUATION OF CENTURY INTERNATIONAL CORP ORA-             12/05/83
               TION, SOLICITATION NO. 10-PN-NLS-0208
      A40055   PREAWARD EVALUATION OF PRICING PROPOSAL, EASTMAN KODAK             12/06/83
               COMPANY, SOLICITATION NO. FGE-B2-75262-N
      A40094   PREAWARD EVALUATION OF PRICING PROPOSAL, PERRY-AUSTEN              12/06/83
               BOWLING PRODUCTS, INC., DES MOINES, IOWA, SOLICITATION NO. 10PN-
               NLS-0208
      A40058   PREAWARD PROPOSAL EVALUATION, POLAROID CORPORATION,                12/07/83
               CAMBRIDGE, MASSACHUSETTS
      A40091   PREAWARD EVALUATION OF PRICE PROPOSAL, BRUNSvVICK CORPORA-         12/09/83
               TION, BRUNSWICK DIVISION (BILLIARDS/ GAMES), SOLICITATION NO.
               10PN-NLS-0208
      A40104   PREAWARD EVALUATION OF PRICE PROPOSAL, GOULD, INC., INSTRU-        12/09/83
               MENTS DIVISION, SOLICITATION NO. FGS-V-36414-N-9-29-83
      A40082   PREAWARD EVALUATION OF PRICING PROPOSAL, DAVIS FURNITURE IN-       12/13/83
               DUSTRIES, INC., HIGH POINT, NORTH CAROLINA, SOLICITATION NO.
               FNPS-S2-1346-N-9-1-83
      A40059   PREAWARD EVALUATION OF POLAROID CORPORATION, CAMBRIDGE,            12/15/83
               MASSACHUSETTS
      A40054   PREAWARD EVALUATION OF PRICING PROPOSAL - EASTMAN KODAK            12/19/83
               COMPANY, SOLICITATION NO. 3FC-83-N-009
      A40208   PREAWARD AUDIT OF REVISED PRICING PROPOSAL SUBMITTED BY GAL-       12/23/83
               LEGOS RESEARCH GROUP IN RESPONSE TO SOLICITATION NO. 8FC-OH2-
               DS050
      A40178   PREAWARD EVALUATION OF PRICE PROPOSAL, AXIA, INCORPORATED,         12/29/83
               NESTAWAY DMSION, SOLICITATION NO. 10PN-NCS-0207
      A40148   PREAWARD EVALUATION OF PRICING PROPOSAL - OLYMPUS CORPO-           01/03/84
               RATION, SOLICITATION NO. FGS-Q-36412-N-7-8-83
      A40086   POST AWARD AUDIT OF CONTRACT NO. GS-OOS-20356, DAVIS FUR-          01/04/84
               NITURE INDUSTRIES, INC., HIGH POINT, NORTH CAROLINA
      A40090   PREAWARD EVALUATION OF PRICING PROPOSAL DBA PRODUCTS COM-          01/04/84
               PAN¥, INC., SOLICITATION NO. 10PN-NLS-0208
      A40164   PREAWARD EVALUATION OF PRICE PROPOSAL, PERKIN-ELMER CORPO-         01/05/84
               RATION, SOLICITATION NO. FGS-K-36415-N-11-9-38
38
A30774        POSTAWARD AUDIT OF MULTIPLE AWARD CONTRACT, AXlA, INC.,              01/06/84
              NESTAWAY DIVISION, CONTRACT NO. GS-I0S-44735
2C200970005   POSTAWARDAUDIT OF MULTIPLE AWARD CONTRACT, MEDLINE INDUS-            01/06/84
              TRIES INC., CONTRACT NO. GS-00S-86809
2C209750011   POST AWARD AUDIT OF CONTRACT NO. GS-00S-23651, LKB INSTRU-           01/09/84
              MENTS,INC.
A40064        EVALUATION OF TERMINATION SETTLEMENT PROPOSAL, SYSTEMS               01/12/84
              AND APPLIED SCIENCES CORPORATION, TASK ORDERS NO. 5C2DA019
              AND NO. 25540260 UNDER CONTRACT NO. GS-05S-12169
A30842        REPORT ON POST AWARD AUDIT, COSTAR                                   01/13/84
A40126        PREAWARD EVALUATION OF PRICING PROPOSAL, ORTHO PHARMACEU-            01/13/84
              TICAL CORP., SOLICITATION NO. FGA-J-X3610-N
A40097        PREAWARD EVALUATION OF PRICING PROPOSAL, HYDRA-FITNESS IN-           01/16/84
              DUSTRIESIDIVISION OF HYDRA-GYM
A40157        REPORT ON ACCOUNTING SYSTEM SURVEY, CARTER CHEVROLET                 01/16/84
              AGENCY, INC., OKARCHE, OKLAHOMA, CONTRACT NO. GS-00S-64528
A40189        REPORT ON PREAWARD EVALUATION OF REVISED COST DATA SUBMIT-           01/16/84
              TED BY A. BRANDT Co., SOLICITATION NO'. l-YNPS-1116-N-1-28-83 (RE-
              NEWAL 1)
A30841        PREAWARD EVALUATION OF A PRICING PROPOSAL, BECKMAN INSTRU-           01/17/84
              MENTS, INCORPORATED, SPINCO DMSION, SOLICITATION NO. FGS-
              0-36412-N-7-8-83
A40155        PREAWARD EVALUATION OF PRICING PROPOSALS, EMECO INDUSTRIES,          01/17/84
              INC., SOLICITATION NO. FNP-C6-1321-N-5-16-83
A40170        PREAWARD EVALUATION OF REVISED PRICING PROPOSAL, FRANKEL             01/17/84
              MANUFACTURING COMPANY, SOLICITATION NO. 2FC-EFB-A-A1748-S
A40173        REPORT ON PREAWARD EVALUATION OF PRICING PROPOSAL, COSTAR            01/17/84
A40229        PREAWARD EVALUATION OF PRICING PROPOSAL SUHMITTED BY CLARK           01/18/84
              EQUIPMENT COMPANYIMELROE DIVISION, FARGO, NORTH DAKOTA, IN
              RESPONSE TO SOLICITATION NO. 10PN-NBS-0206
A40248        AUDIT REPORT ON EVALUATION OF PRICE PROPOSAL, ALLEN'S MOVING         01/18/84
              & STORAGE CO., INC., WASHINGTON, D.C., RFP NO. WFCG-ED-N-I072
A40119        PREAWARD EVALUATION OF A PRICING PROPOSAL, WESTERN FIRE              01/19/84
              EQUIPMENT Co., SOLICITATION NO. GS-08-1485
A40151        LETTER REPORT - PREAWARD EVALUATION OF PRICE PROPOSAL, MUR-          01/19/84
              RAY AND SONS, Co., INC., LOS ANGELES, CALIFORNIA
A40165        PREAWARD EVALUATION OF PRICE PROPOSAL FOR INDOOR ATHLETIC            01/20/84
              AND RECREATIONAL EQUIPMENT, MARCY GYMNASIUM EQUIPMENT
A40218        AUDIT REPORT ON PREAWARD EVALUATION OF PROPOSAL SUBMITTED            01/20/84
              FOR MULTIPLE AWARD SCHEDULE CONTRACT; SOLICITATION NO. 10PN-
              NCS-0207, INTERMETRO INDUSTRIES CORPORATION, WILKES-BARRE,
              PA.
A40232        AUDIT REPORT ON PREAWARD EVALUATION OF PRICING PROPOSAL -            01/20/84
              EMECO INDUSTRIES, INC.; SOLICITATION NO. FNPS-56-1530-N-I0-25-83
A40194        PREAWARD EVALUATION OF A PRICING PROPOSAL, BECTON DICKINSON          01/23/84
              LABWARE, SOLICITATIqN NO. FGS-E-36417-N-I0-31-83
A40143        PREAWARD AUDIT OF PRICE PROPOSAL, ADVANCE MACHINE COMPANY,           01/24/84
              SOLICITATION NO. 9FCO-OLQ-M-A0946/83
A40166        PREAWARD EVALUATION OF PRICING PROPOSAL, THE PRIME-MOVER             01/25/84
              COMPANY, MUSCATINE, IOWA, SOLICITATION NO. 10PN-NCS-0207
A40204        PREAWARD EVALUATION OF PRICE PROPOSAL, PERKIN-ELMER CORPO-           01/26/84
              RATION, SOLICITATION NO. FGS-P-36396-N-1-12-82
A40198        PREAWARD EVALUATION OF PRICING PROPOSAL, KRUEGER, INC., GREEN        01/27/84
              BAY, WISCONSIN, SOLICITATION NO. FNPS-S6-1529-N-I0-25-83
A30869        PREAWARD EVALUATION OF COST OR PRICING DATA, NATIONAL                01/30/84
              STANDARDS ASSOCIATION, INC., CONTRACT NO. GS-00S-63007
A40161        PREAWARD EVALUATION OF CANBERRA INDUSTRIES, SOLICITATION             01/30/84
              NO. FGS-K-36415-N-11-9-83
                                                                                              39
     A40174   PREAWARD EVALUATION OF PRICING PROPOSAL, PLASTIC REEL CORPO-        01/30/84
              RATION OF AMERICA, SOLICITATION NO. GSA-3FC-83-N-009
     A40197   REPORT ON PREAWARD EVALUATION OF PRICING PROPOSAL, EXTRA-           01/30/84
              NUCLEAR LABORATORIES INC., PITTSBURGH, PENNSYLVANIA, SOLIC-
              ITATION NO. FGS-K-364l5-N-11-9-83
     A40169   PREAWARD EVALUATION OF VG INSTRUMENTS, INC., SOLICITATION NO.       01/31/84
              FGS-K-364l5-N-11-9-83
     A40145   PREAWARD EVALUATION OF PRICE PROPOSAL, H.B. FULLER COMPANY,         02/03/84
              MULTI-CLEAN PRODUCTS DIVISION, SOLICITATION NO. 9FCO-OLQ-M-
              A0946/83
     A40246   REPORT ON PREAWARD EVALUATION OF PRICING PROPOSAL, FMC COR-         02/03/84
              PORATION, POMONA, CALIFORNIA, SOLICITATION NO. 10PN-NBS-0206
     A40223   PREAWARD AUDIT OF PRICE PROPOSAL, SWEEPSTER-JENKINS EQUIP-          02/09/84
              MENT Co., INC., SOLICITATION NO. 10PN-NBS-0206
     A40146   PREAWARD EVALUATION OF PRICE PROPOSAL, BREUER ELECTRIC MAN-         02/14/84
              UFACTURINGCOMPANY, SOLICITATION NO. 9FCO-OLQ-M-A0946/83-
     A40201   PREAWARD EVALUATION OF PRICING PROPOSAL, CONSTRUCTIVE PLAY-         02/14/84
              THINGS, LEAWOOD, KANSAS
     A40230   PREAWARD EVALUATION OF PROPOSAL SUBMITTED FOR MULTIPLE              02/15/84
              AWARD SCHEDULE CONTRACT, GEOMETRIC DATA, SOLICITATION NO.
              FGS-P-36396-N-1-12-82
     A40254   PREAWARD EVALUATION OF PRICING PROPOSAL, PHARMACIA FINE             02/15/84
              CHEMICALS, SOLICITATION NO. FGS-P-36396-N-1-12-82
     A40l84   REPORT ON THE PREAWARD EVALUATION OF PRICING PROPOSAL,              02/17/84
              TECHNOTRUCK MANUFACTURING COMPANY, SOLICITATION NO. 10PN-
              NCS-0207
     A40209   PREAWARD EVALUATION OF PRICING PROPOSAL, CUMBERLAND COR-            02/17/84
              PORATION, SOLICITATION NO. 10PN-NCS-0207
     A40215   PREAWARD PROPOSAL EVALUATION, WATERS ASSOCIATES, MILFORD,           02/21/84
              MASSACHUSETTS
     A40202   PREAWARD EVALUATION OF PRICING PROPOSAL, EQUIPMENT COM-             02/22/84
              PANY OF AMERICA, HIALEAH, FLORIDA, SOLICITATION NO. 10PN-NCS-
              0207
     A40288   PREAWARD PROPOSAL EVALUATION, JAYFRO CORPORATION, WATER-            02/24/84
              FORD, CONNECTICUT
     A40225   PREAWARD EVALUATION OF PRICE PROPOSAL, TRACOR NORTHERN, A           03/05/84
              DIVISION OF TRACOR, INC., SOLICITATION NO. FGS-K-364l5-N-11-9-83
     A40222   PREAWARD EVALUATION OF PRICE PROPOSAL, PACKARD INSTRUMENT           03/07/84
              COMPANY, INC., SOLICITATION NO. FGS-K-364l5-N-ll-9-83
     A40231   PREAWARD EVALUATION OF PRICING PROPOSALS, ART METAL - U.S.A.,       03/09/84
              INC., SOLICITATION NO. YNP-Cl-1336-N-2-23-83
     A40285   PREAWARD EVALUATION OF PRICE PROPOSAL, A.M. INTERNATIONAL,          03/09/84
              INC., DIP, MULTIGRAPHICS DIVISION, SOLICITATION NO. FGE-Al-75274-
              N-12-l4-83
     A40210   PREAWARD EVALUATION OF PRICING PROPOSAL, ORTHO DIAGNOSTIC           03/12/84
              SYSTEMS, INC., SOLICITATION NO. FGS-P-36396-N
     A40385   REVIEW OF PROGRESS PAYMENT REQUEST, WS. DARLEY & CO .. CON-         03/14/84
              TRACT NO. GS-OOS-644l5
     A40337   REPORT ON REVIEW OF SEPIA INDUSTRIES, CLAIM FOR DAMAGES UN-         03/15/84
              DER GSA CONTRACT GS-07S-09222
     A40226   PREAWARD EVALUATION OF PRICE PROPOSAL, TENNANT COMPANY,             03/16/84
              SOLICITATION NO. lOPN-NBS-0206
     A40408   PREAWARD EVALUATION OF PRICING PROPOSAL, CEL-U-DEX CORPORA-         03/16/84
              TION, SOLICITATION NO. 7PRT-52297-A/C5/75B, 620l-4W2l0l57-43l
     A30329   POSTAWARD AUDIT OF CONTRACT NO. GS-00S-23294, BECTON DICKIN-        03/19/84
              SON LAB WARE , OXNARD, CALIFORNIA
     A40195   PREAWARD EVALUATION OF PRICE PROPOSAL, NICOLET INSTRUMENT           03/20/84
              CORPORATION, SOLICITATION NO. FGS-K-364l5-N-11-9-83
40
A40263         PREAWARD EVALUATION OF COST AND PRICING DATA, EDP AUDIT CON-      03/21/84
               TROLS, INC., SOLICITATION NO. 9FG-05D-N-A0806/84
A40419         REPORT ON EVALUATION OF INITIAL PRICING PROPOSAL, EBSCO IN-       03/22/84
               DUSTRIES, INC., SOLICITATION NO. FNMS-51-1116-N, RENEWAL NO.1
A40330         PREAWARD EVALUATION OF PRICE PROPOSAL, LAKESHORE CURRICU-         03/28/84
               LUM MATERIALS COMPANY, CARSON, CALIFORNIA
A40264         PREAWARD EVALUATION OF PRICING PROPOSAL, ABBOTT LABORATO-         03/29/84
               RIES, ABBOTT DIAGNOSTICS DMSION, SOLICITATION NO. FGS-P-36396-
               N-1-12-83
A40280         PREAWARD EVALUATION OF PRICE PROPOSAL, 3M COMPANY, PRINTING       03/29/84
               & REPROGRAPHIC PRODUCTS DMSION, SOLICITATION NO. FGE-
               Al-757274-N-12-14-83
A40439         REPORT ON PREAWARD EVALUATION OF PRICE PROPOSAL SUBMITTED         03/30/84-
               BY HOOVER SYSTEMS, ACOUSTICAL SCREENS IN COLOR, INC.


FSS            Internal & Inspection Audits
3C201360707    REVIEW OF THE PILOT PROGRAM FOR REPAIR OF ELECTRIC TYPE-          10/06/83
               WRITERS, REGION 7
A30757         REVIEW OF REGION 4 CONTRACT MANAGEMENT DMSION, QUALITY            10/11/83
               CONTROL ACTMTIES FOR WOODEN MALLETS
A30580         LETTER REPORT ON AUDIT ASPECTS OF THE SMALL BUSINESS PRO·         10/17/83
               GRAM WITHIN THE OFFICE OF PERSONAL PROPERTY
A30844         REPORT ON REVIEW OF THE PHYSICAL INVENTORY COUNT AT SELF-         10/17/83
               SERVICE STORE 49, 405 SOUTH 12TH STREET, ST. LOUIS, MISSOURI
A30327         LETTER REPORT - ADMINISTRATIVE IMPROVEMENT IS NEEDED OVER         10/27/83
               PROCESSING OF FORMALLY ADVERTISED CONTRACTS
A30199         REVIEW OF THE COMMODITY MANAGEMENT OF PAPER GROCERY BAGS          10/28/83
A30715         REVIEW OF FURNITURE MADE BY HARVARD INTERIORS                     10/31/83
A30315         LETTER REPORT - REVIEW OF THE ADMINISTRATION OF GSA COMMER-       11/21/83
               CIAL TRAVEL AGENT CONTRACTS
A30335         AUDIT OF CONTRACT MANAGEMENT DIVISION OPERATIONS, REGION 5        11/30/83
A30830         AUDIT REPORT - BOSTON SELF-SERVICE STORE INVENTORY                12/02/83
A30756         FINAL REPORT ON REVIEW OF EXCESSED EQUIPMENT RESULTING FROM       12/21/83
               OMB CIRCULAR A-76
A30288         REVIEW OF THE CONTRACT SERVICES PROGRAM, NATIONAL CAPITAL         12/30/83
               REGION
A30865         REVIEW OF THE KENTUCKY STATE AGENCY FOR SURPLUS PROPERTY          01/20/84
A40185         REPORT ON THE REVIEW OF COMMERCIAL TRAVEL AGENT CONTRACTS         01/24/84
               IN REGION 6
FSSTPUSF0482   REVIEW OF THE CENTRALIZED HOUSEHOLD GOODS TRAFFIC MANAGE-         01/31/84
               MENT PROGRAM IN THE NATIONAL CAPITAL REGION
A30300         REVIEW OF THE TERM CONTRACT FOR TRANSPORTATION & RELATED          02/03/84
               MOVING SERVICES IN THE WASHINGTON, nc., COMMERCIAL ZONE,
               CONTRACT NO. GS-OWT-01135
A30818         REVIEW OF PICTURE FRAMES MADE BY IVY TOOL COMPANY                 02/03/84
A30828         REVIEW OF SMALL BUSINESS PROGRAM IN REGION 4                      02/09/84
A40203         AUDIT REPORT      REVIEW OF BILLINGS UNDER CONTRACT NO. GS-       02/14/84
               O4S-24984, NEVINS CARPET SERVICE, TUCKER, GA.
A40073         LETTER REPORT - RESULTS OF LIMITED TEST TO VERIFY USE OF OFFICE   02/23/84
               OF FEDERAL SUPPLY AND SERVICES SOURCES OF SUPPLY IN THE NA-
               TIONAL CAPITAL REGION
3N207670023    AUDIT OF GSA'S MANAGEMENT EFFORTS TO IMPROVE THE MULTIPLE         02/28/84
               AWARD SCHEDULES PROGRAM
A40214         AUDIT REPORT - REVIEW OF G.C.S. COMPANY, INC., CONTRACT NO. GS-   02/29/84
               09S-42068
                                                                                             41
     FSSTPUSF0782 FINAL REPORT ON REVIEW OF TIlE FURNITURE REHABILITATION PRO-         02/29/84
                  GRAM AT TIlE PERSONAL PROPERTY CENTER, FRANCONIA, VA.
     A30337       REVIEW OF THE CONTRACT MANAGEMENT DMSION                             03/08/84
     A40079       OPERATING PROCEDURES NEED TO BE IMPROVED AT TIlE SUPPLY DIS-         03/08/84
                  TRIBUTION FAOLITY, NORFOLK, VIRGINIA
     A40268       FINAL REPORT ON REVIEW OF TIlE PHYSICAL INVENTORY COUNT AT           03/16/84
                  SELF-SERVICE STORE 48, 4300 GOODFELLOW, ST. LOUIS, MISSOURI
     A40309       FINAL REPORT ON REVIEW OF TIlE PHYSICAL INVENTORY COUNT AT           03/27/84
                  TIlE CUSTOMER SUPPLY CENTER, KANSAS OTY, MISSOURI


     OIRM           Contract Audits
     A30489         POST AWARD AUDIT, RAYTHEON DATA SYSTEMS COMPANY, NORWOOD,          10/07/83
                    MASSACHUSETTS
     A30877         PREAWARD EVALUATION OF PRIONG PROPOSAL, RAPICOM, INC., SOLIC-      10/13/83
                    ITATION NO. GSC-KESCV-00024-N
     2S209350004    AUDIT REPORT - POST AWARD AUDIT OF CONTRACT NO. GS-00C-01876       10/17/83
                    WITH LANIER BUSINESS PRODUCTS, INC.
     2S209350004(b) AUDIT REPORT - POST AWARD AUDIT OF CONTRACT NO. GS-OOC-02504       10/17/83
                    WITIl LANIER BUSINESS PRODUCTS, INC.
     2S110130004    POST AWARD AUDIT OF CONTRACT NO. GS-00S-92012, LANIER BUSINESS     10/17/83
                    PRODUCTS, INC.
     A40012         PREAWARD EVALUATION OF PRIONG PROPOSAL, UNICOM SYSTEMS             10/24/83
                    INC., SOLIOTATION NO. GSC-KESCV-00024-N-6-28-83
     A30856         PREAWARD EVALUATION OF PRIONG PROPOSAL, DICTAPHONE CORPO-          10/25/83
                    RATION, SOLIOTATION NO. GSC-KESA-C-00024-N-5-12-83
     A40070         PREAWARD EVALUATION OF PRICE PROPOSAL, CENTEC CORPORATION,         10/28/83
                    RFP NO. GSC-KESA-C-00024
     A30787         PREAWARD EVALUATION OF A PRIONG PROPOSAL, RAPICOM, INCOR-          10/31/83
                    PORATED
     A30823         PREAWARD EVALUATION OF PRIONG PROPOSAL, PANAFAX CORPORA-           10/31/83
                    TION, SOLIOTATION NO. GSC-KESVC-00024-N-6-28-83
     A30827         REPORT ON POSTAWARD REVIEW, DATAPOINT CORPORATION, CON-            10/31/83
                    TRACT NO. GSC-OOC-01585
     A30840         PREAWARD EVALUATION OF A PRIONG PROPOSAL, DATUM INCORPO-           11/07/83
                    RATED, SOLIOTATION NO. GSC-KESA-C-00024-N-5-12-83
     A40042         PREAWARD EVALUATION OF PRICE PROPOSAL FOR GENERAL PURPOSE          12/13/83
                    ADP EQUIPMENT AND SOFTWARE, FSC GROUP 70, PART 1, SECTION A
                    (GSC-KESA-C-00024-N-5-12-83), TEKTRONIX, INC., BEAVERTON, OREGON
     A40211         EVALUATION OF COST-PLUS-FIXED-FEE PROPOSAL, BOOZ, ALLEN &          12/30/83
                    HAMILTON, INC., RFP NO. KETN-EC-83-10
     A40190         PREAWARD EVALUATION OF PRIONG PROPOSAL, HITACHI DENSHI             02/03/84
                    AMERICA, LTD., SOLIOTATION NO. GSC-KESCV-00025-N-12-1-83
     A40212         REPORT ON PREAWARD EVALUATION OF PRIONG PROPOSAL,                  02/10/84
                    METRAPLEX CORPORATION
     A40265         PREAWARD EVALUATION OF PRIONG PROPOSAL, HONEYWELL INC.,            02/13/84
                    TEST INSTRUMENTS DMSION, SOLIOTATION NO. GSC-KESCR-00026-
                    N-12-8-83
     A40193         PREAWARD EVALUATION OF RAYTIIEON MARINE COMPANY, SOLIOTA-          02/24/84
                    TION NO. GSC-KESR-00026-N-12-8-83
     A40026         PREAWARD EVALUATION OF MULTIPLE AWARD SCHEDULE CONTRACT            02/29/84
                    PROPOSAL, HONEYWELL INFORMATION SYSTEMS, INC., SOLIOTATION
                    NO. GSC-KESA-C-00024-N-5-12-83
     A40302         AUDIT REPORT - PREAWARD EVALUATION OF PRIONG PROPOSAL FOR          02/29/84
                    RENEWAL OF CONTRACT NO. GSOOK830IS5070 SUBMIITED BY RACAL-
                    MILGO INFORMATION SYSTEMS, A DIVISION OF RACAL INFORMATION
                    SYSTEMS, INC., MIAMI, FLORIDA
42
A40279        PREAWARD EVALUATION OF PRICING PROPOSAL, DATATAPE, INCORPO-       03/05/84
              RATED, PASADENA, CALIFORNIA, SOLICITATION NO. GSC-KESCR-OOOZ6-
              N-1Z-8-83
A40310        PREAWARD EVALUATION OF PROPOSAL SUBMITTED FOR MULTIPLE            03/09/84
              AWARD SCHEDULE CONTRACT, OMNITER, INC., SOLICITATION NO. GSC-
              KESCR-OOOZ6-N-1Z-8-83
A40298        PREAWARD EVALUATION OF DENNISON KYBE CORPORATION, RE-             03/14/84
              NEWAL OF CONTRACT NO. GSOOK830IS5090
A40395        EVALUATION OF FIXED LABOR RATE!INDEFINITE QUANTITY PRO-           03/16/84
              POSAL, BOOZ, ALLEN & HAMILTON, INC., RFP NO. KETN-MW-84-02
A40304        AUDIT REPORT - PREAWARD EVALUATION OF NEGOTIATED COMMER-          03/21/84
              CIAL ITEM SCHEDULE BY DIGITAL COMMUNICATIONS ASSOCIATES, INC.
              (DCA), NORCROSS, GEORGIA, SOLICITATION NO. GSC-KESA-X-00026-
              N-1-4-84
A40140        PREAWARD EVALUATION OF A PRICING PROPOSAL, RAPICOM, INCOR-        03/23/84
              PORATED
A40253        PREAWARD EVALUATION OF PRICING PROPOSAL, SONY CORPORATION         03/26/84
              OF AMERICA, SOLICITATION NO. GSG-KESCV-OOOZ5-N-12-1-83
A40328        PREAWARD EVALUATION OF PRICE PROPOSAL, ANDERSON JACOBSON,         03/27/84
              INC., RENEWAL OF CONTRACT GSOOK830IS51Z0
A40290        PREAWARD EVALUATION OF PRICING PROPOSAL, RADIO SHACK, SOLIG-      03/22/84
              ITATION NO. GSC-KESA-B-OOOZ5-N-12-16-83
A40324        PREAWARD EVALUATION OF A PRICING PROPOSAL, GRID SYSTEMS COR-      03/30/84
              PORATION, MOUNTAINVIEW; CALIFORNIA, SOLICITATION NO. GSC-
              KESA-B-000Z5-N-12-16-83


OIKM          Internal & Inspection Audits
4M206130404   GSA'S COMCEN MODERNIZATION PROGRAM ADMINISTERED BY RE-            12/09/83
              GION4
A30421        REVIEW OF TELEPHONE SERVICES PROCUREMENT MANAGEMENT, OF-          02/13/84
              FlCE OF INFORMATION RESOURCES MANAGEMENT
A40052        FINAL INTERIM LETTER REPORT ON DPA PROCUREMENT ACTION             03/30/84
              KMA-3-108-A
A30771        INTERIM REPORT ON AUDIT OF TELEPHONE INVENTORY ACCOUNTING         03/30/84
              SYSTEM
5Fl04660028   AUDIT OF THE COMPUTER SECURITY PROGRAM IN GSA                     03/30/84


FPKS          Contract Audits
A30085        AUDIT OF TIME AND MATERIAL CONTRACTS, FREDRICKSON TIRE INC.,      10/11/83
              SIOUX CITY, IOWA, CONTRACT NOS. GS-6DPR-00484 AND GS-7DPR-Z0157
A30791        ACCO~NTING SYSTEM REVIEW; WILLIAM LANGER JEWEL BEARING            10/14/83
              PLANT, CONTRACT NO. GS-OO-DS-(P)-03003
A30746        AUDIT OF COSTS INCURRED, BULOVA WATCH COMPANY, INC., WILLIAM      10/19/83
              LANGER JEWEL BEARING PLANT, CONTRACT NO. GS-OO-DS-(P)-03003,
              FOR THE PERIOD JUNE 1, 1980, THROUGH JULY 31, 1983



FPKS          Internal & Inspection Audits
A30259        REPORT ON INEFFECTIVE INTERNAL CONTROLS WEAKEN THE REAL           10/31/83
              PROPERTY DISPOSAL PROCESS, REGION 1
A30420        CONTROLS OVER RECEIPTS FROM REAL PROPERTY SALES                   12/07/83
A30726        REVIEW OF MANAGEMENT OF EXCESS AND SURPLUS REAL PROPERTY,         01/30/84
              REGION 10

                                                                                           43
     other         contract Audits
     A40100        PREAWARD AUDIT OF 8(A) PRICING PROPOSAL, COMMUNICATIONS IN-        11/22/83
                   TERNATIONAL, INC., SOLICITATION NO. F30637-83-R-0027
     A40159        PREAWARD EVALUATION OF PRICING PROPOSAL, ABBOTT LABORATO-          02/16/84
                   RIES, ABBOTT DIAGNOSTICS DIVISION, SOLICITATION NO. M5-Q52-84
     A40287        PREAWARD EVALUATION OF CONSTRUCTION CONSULTANT SERVICES,           03/19/84
                   GILBANE/JACKSON (JOINT VENTURE), CONTRACT NO. PA4PC002


     other         Internal & Inspection Audits
     A30413          CONFUSION EXISTS IN REPORTING AND INVESTIGATING VIOLATIONS       10/05/83
                     IN GSA
     5F207570028     FINAL REPORT ON REVIEW OF INFONET COMPUTER SYSTEM E UTILIZA-     10/18/83
                     TION
     A30262          REPORT ON REVIEW OF HOTLINE ALLEGATIONS CONCERNING THE CEN-      10/20/83
                     TRAL SUPPORT DIVISION AND THE FACILITY MANAGEMENT DIVISION
                     OF THE OFFICE OF ADMINISTRATIVE SERVICES
     A30343        . AUDIT OF PRINTING AND DISTRIBUTION BRANCH OPERATIONS, RE-        10/20/83
                     GION9
     A30448          REVIEW OF VENDOR PAYMENTS, OFFICE OF INFORMATION RESOURCES       10/24/83
                     MANAGEMENT, REGION 9
     A30459          REVIEW OF FY 1982 CONSULTANT CONTRACTS AND EXPFRT APPOINT-       10/26/83
                     MENTS
     9A200010022     REVIEW OF FISCAL YEAR 1982 YEAR-END SPENDING                     11/07/83
     A40110          REVIEW OF MCMANIS ASSOCIATES CONTRACT (GSOOK8302C2 529)          11/10/83
     A30192          AUDIT OF MANPOWER AND PAYROLL STATISTICS SYSTEM                  11/29/83
     A30632          FINAL REPORT ON AUDIT OF REGIONAL COUNSEL OPERATIONS             11/29/83
     A30755          AUDIT REPORT - ADMINISTRATION AND CONTROL OF TRAVEL, REGION      12/06/83
                   1
     A40167        APPLICATION OF RELOCATION ASSISTANCE              LEASE NO. GS-    12/22/83
                   09B-81797
     A30224        FINAL REPORT ON REVIEW OF THE AUTOMATED DIRECT DELIVERY LINE
                   ITEM BILLING SYSTEM
     A30719        FINAL REPORT ON FY 83 CONSULTANT CONTRACTS                         01/31/84
     A30309        LETTER REPORT ON REGION 10 INTERtl\,JAL CONTROLS OVER SENIOR OF-
                   FICIAL's TRAVEL ARE INADEQUATE
     A40293        AUDIT REPORT - ADVISORY BOARD SUBCOMMITTEE ON FINANCE              02/06/84
     A30211        AUDIT OF OPERATIONS OF FEDERAL ARCHIVES AND RECORDS CENTER,        02/24/84
                   CHICAGO, ILLINOIS, REGION 5




44
APP             OIX II
Delinquent Debts
GSA's Office of Comptroller provided the information               providing for separate identification of non-
presented herein.                                                  Federal delinquent debts in formal dispute,
                                                                   thereby allowing aggressive pursuit of collecti-
                                                                   ble amounts;
GSA Efforts to Improve Debt                                      • Establishing procedures enabling GSA to re-
Collection                                                         quest the addresses of delinquent debtors from
During the period October 1, 1983 and March 31,                    the Internal Revenue Service;
198~, GSA completed many activities previously un-               • Initiating efforts to develop and publish supple-
dertaken to improve debt collection and reduce the                 mental procedures to implement the Federal
amount of debt written off as uncollectible, and initi-            Claims Collection Standards within the GSA;
ated several new actions. These initiatives included:              and
   • Expediting the Department of Justice (DOn lock-             • Preparing a Statement of Work that will enable
      box collection system by establishing the Denver             GSA to solicit bids for commercial debt collec-
      finance office as the GSA-wide control point for             tion services.
      identifying remittances resulting from DOJ liti-
      gation;
   ., Taking preliminary actions necessary for                Non-Federal Accounts Receivable
      providing credit bureaus with information on            Because GSA utilizes manual reporting systems for its
      the delinquent Federal debts of commercial en-          non-Federal accounts receivable, data for the period
      tities and individuals so that such financial in-       October 1, 1983 through March 31, 1984 were not
      formation can be included in credit reports;            available at the time of publication of this report. Six-
    • Implementing revisions to the Schedule 9,               month data for the period June 30, 1983 through De-
      Standard Form 220 reporting requirements                cember 31, 1983 are therefore provided.



                                                      As 01                   As of
                                                   June 30, 1983         December 31, 1983            Difference


      Total Amounts Due GSA ........... .          $97,663,454               $76,222,299            ($21,441,155)
      Amount Delinquent ............... .          $10,219,703               $10,558,973               $339,270
      Total Amount
      Written Off as
      Uncollectible Between
      6/30/83 and 12/31/83 ............. .                $248,452




                                                                                                                          45
